<html>
<title> - IMPROVING GOVERNMENT ACCOUNTABILITY AND TRANSPARENCY</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                  IMPROVING GOVERNMENT ACCOUNTABILITY
                            AND TRANSPARENCY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2021

                               __________

                           Serial No. 117-17

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-568 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                             
                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

                     David Rapallo, Staff Director
            Krista Boyd, Chief Oversight and Policy Counsel
                       Aaron Blacksberg, Counsel
                       Elisa LaNier, Chief Clerk

                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                                
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on May 3, 2021......................................     1

                               Witnesses

James-Christian Blockwood, Executive Vice President, Partnership 
  for Public Service
    Oral Statement...............................................     5
Elizabeth Hempowicz, Director of Public Policy, Project on 
  Government Oversight
    Oral Statement...............................................     6
Rudy Mehrbani, Senior Advisor, Democracy Fund
    Oral Statement...............................................     8
Zack Smith, Legal Fellow, Meese Center, The Heritage Foundation
    Oral Statement...............................................    10

 Opening statements and the prepared statements for the witnesses 
  are available in the U.S. House of Representatives Repository 
  at: docs.house.gov.
                           INDEX OF DOCUMENTS

                              ----------                              

The documents entered into the record for this hearing are listed 
  below.

  * Letter from the National Association of Assistant United 
  States Attorneys; submitted by Rep. Norman.

  * A study by Anne Joseph O'Connell; submitted by Rep. Porter.

  * Written testimony by Anne Joseph O'Connell; submitted by Rep. 
  Porter.

  * Letter signed by Government Groups; submitted by Rep. Porter.

  * March 16, 2021 letter signed by more than two dozen outside 
  groups and experts in support of the PLUM Act; submitted by 
  Rep. Maloney.

  * March 18, 2021 letter from Partnership for Public Service in 
  support of the PLUM Act; submitted by Rep. Maloney.

  * GAO report from March 14 recommending that Congress consider 
  legislation to require publishing information on political 
  appointees; submitted by Rep. Maloney.

  * May 3, 2021 letter from organizations in the Make It Safe 
  Coalition Steering Committee in support of the Whistleblower 
  Protection Improvement Act; submitted by Rep. Maloney.

  * Written testimony of Thomas Devine, legal director, 
  Government Accountability Project; submitted by Rep. Maloney.

  * April 1, 2021 letter to President Biden on whistleblower 
  protections signed by over 260 organizations; submitted by Rep. 
  Maloney.

  * March 26, 2021 letter signed by 17 organizations in support 
  of the Inspector General Access Act; submitted by Rep. Maloney.

  * January 28, 2021 letter from the Council of Inspectors 
  General on Integrity and Efficiency on their legislative 
  priorities for the 117th Congress; submitted by Rep. Maloney.
  * November 23, 2020 letter from then GSA Administrator Emily 
  Murphy to then President elect Joe Biden; submitted by Rep. 
  Maloney.

  * March 16, 2021 letter signed by 15 organizations in support 
  of reforms to the Federal Advisory Committee Amendments Act; 
  submitted by Rep. Maloney.

  * September 10, 2020 GAO report that identified weaknesses in 
  agency implementation of FATCA; submitted by Rep. Maloney.

  * April 13 letter from 29 organizations in support of the 
  access to Congressionally Mandated Reports Act; submitted by 
  Rep. Maloney.

  * D.C. Affairs Community letter regarding support for 
  statehood; submitted by Rep. Maloney.


These documents are available at: docs.house.gov.

 
          IMPROVING GOVERNMENT ACCOUNTABILITY AND TRANSPARENCY

                              ----------                              


                          Monday, May 3, 2021

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 11:04 a.m., in 
room 2154, Rayburn House Office Building, Hon. Carolyn B. 
Maloney [chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Lynch, Connolly, 
Krishnamoorthi, Raskin, Mfume, Tlaib, Porter, Bush, Wasserman 
Schultz, Johnson, Sarbanes, Speier, DeSaulnier, Quigley, 
Jordan, Grothman, Gibbs, Higgins, Norman, Keller, Biggs, Clyde, 
Franklin, Fallon, Herrell, and Donalds.
    Chairwoman Maloney. The committee will come to order. 
Without objection, the chair is authorized to declare a recess 
of the committee at any time. I now recognize myself for an 
opening statement.
    Today's hearing will examine legislative proposals to 
improve government accountability and transparency. Enacting 
these commonsense bipartisan reforms would improve efficiency, 
combat waste, fraud, and abuse, and build public trust in the 
Federal Government. The work of inspectors general is critical 
to each of these goals. I introduced the IG Independence and 
Empowerment Act to ensure that inspectors general can perform 
their jobs free from political retaliation and that they have 
the tools needed to perform thorough investigations.
    This comprehensive package includes my bill that would 
protect IGs from being fired just for doing their jobs, and 
would only allow an IG to be removed for cause based on a 
defined list of legitimate, nonpartisan reasons.
    This package also includes bills introduced by several 
committee members, including Government Operations Subcommittee 
Chairman Connolly, Committee Vice Chair Gomez, and 
Congresswoman Porter. I want to thank each of them for their 
hard work on these reforms.
    Many of these proposals have historically enjoyed 
bipartisan support, such as giving IGs the ability to compel 
testimony from contractors and former Federal employees.
    Another bill we will be considering is the Periodically 
Listing Updates to Management Act, also known as the PLUM Act. 
With the support of Chairman Connolly and Congressman Sarbanes, 
we introduced this bill as part of Sunshine Week back in March. 
This bill would provide the American people with timely and 
transparent information about senior government officials.
    During Sunshine Week, I also introduced the bipartisan 
Federal Advisory Committee Transparency Act, with Ranking 
Member Comer. This bill would close loopholes that agencies 
have often used to avoid making the work of these advisory 
committees transparent to the public. I am grateful to the 
ranking member for his continued support on this much-needed 
reform.
    Today, we will also discuss the Accountability for Acting 
Officials Act, Congresswoman Porter's bill, to amend Federal 
vacancies law. I support this important bill which would 
clarify and strengthen requirements around who can serve as an 
acting official and for how long. When a Senate-confirmed 
position is vacant, the bill would also increase transparency 
with new requirements for agencies to notify Congress about 
vacancies and for acting officials to testify regularly before 
Congress.
    Finally, protections for whistleblowers need to be 
strengthened to preserve the crucial role these Federal 
employees play in holding the government accountable, including 
by providing information to Congress. These reforms have always 
received strong bipartisan support. That is why I'm pleased to 
announce that Representatives Mace, Connolly, Speier, Johnson, 
Rice, and I are introducing the Whistleblower Protection 
Improvement Act today.
    This bill would clarify that no Federal employee, including 
the President or Vice President of the United States, may 
interfere with or retaliate against a whistleblower for sharing 
information with Congress. The bill would provide Federal 
whistleblowers with faster legal recourse for retaliation 
claims and would allow whistleblowers who take a claim to court 
to have their case heard by a jury.
    I look forward to hearing from today's panel of nonpartisan 
experts on these topics and our proposed reforms. Today's 
hearing is the first step in the legislative process. Going 
forward, I hope to work with the ranking member and all members 
of the committee to pass these bills out of the committee and 
enact them into law.
    I now recognize Mr. Gibbs for an opening statement.
    Mr. Gibbs. Thank you, Chairman Maloney, for holding this 
important hearing today. And thank you to all the witnesses for 
testifying.
    Transparency and accountability in government is essential. 
Citizens deserve to know what is really happening in their 
government and not months or years later after elected 
officials or unelected bureaucrats can escape the consequences. 
Otherwise, the accountability built into elections is not as 
robust as it should be. The lack of transparency and 
politicians avoiding accountability are major factors why the 
American people feel so disconnected and ignored by Washington.
    President Biden's address to Congress last week in his 
first 100 days of office is a prime example. When he 
campaigned, President Biden promised a return to normalcy and a 
commitment to bipartisan solutions. What we have seen since 
inauguration day and what we've heard about the President's 
plan last week, have been anything but that. We haven't seen a 
return to normalcy at all. What we've seen is some of the most 
radical and costly left-wing proposals this country has ever 
seen.
    President Biden has proposed to spend $6 trillion, mostly 
on socialist initiatives, ignoring the bipartisan consensus on 
commonsense policies such as infrastructure. Government under 
President Biden will control every aspect of our lives. 
Meanwhile, many children have not attended full-time, in-person 
school since March of last year. Fifty percent of our schools 
have not fully reopened.
    Some of the legislation before us today is more of the same 
partisan agenda, such as the legislation that was part of 
Speaker Pelosi's and Representative Adam Schiff's Protecting 
Our Democracy Act last year. That was a 158-page campaign 
document pretending to be legislation, commissioned by Speaker 
Pelosi and introduced during the last weeks before the 2020 
election to politically damage President Trump. It was referred 
primarily to this committee and included two bills, the 
Inspector Generals Independence Act and the Accountability for 
Acting Officials Act, that led to the largest bill before us 
today, the Inspector Generals Independence Empowerment Act. It 
was referred to eight Democrat-controlled committees last term, 
not one which took it up seriously, held a legislative hearing, 
or marked it up.
    I sincerely hope that legislation in this bill is not being 
promoted once more to play partisan politics, only this time to 
divert voters' attention away from the Biden administration's 
border crisis and the Democrats' other disastrous, debt-
crippling policies.
    Some of us on the other side of the aisle have supported 
and even cosponsored some of the other legislation before us 
today, including, for example, the Federal Advisory Committee 
Transparency Act, which Ranking Member Comer is the leading 
Republican cosponsor. I hope we can focus on those commonsense 
measures that have real promise for bipartisan consensus, not 
the campaign leftovers pulled from the Speaker's and Mr. 
Schiff's Protecting Our Democracy Act.
    And since some of our business today involves inspector 
generals issues, I hope we can use this hearing to help get to 
the bottom of what went wrong with the Election Assistance 
Commission's Inspector General's Office last year. That office 
utterly failed to investigate what would seem to be an unlawful 
$35 million contract awarded by former California Secretary of 
State Alex Padilla to then Presidential candidate Joe Biden's 
main election campaign advisory firm out of the CARES Act 
funds, of all things. The EAC's Inspector General is not only 
IG unable to investigate clear wrongdoings.
    Many small inspectors generals office do not have the 
staffing or resources to conduct investigations and 
substantiate allegations of wrongdoing. If an inspector 
general's office does not have the staffing to conduct rigorous 
investigations into credible allegations, then it does not have 
the resources to function. Inspector general's offices should 
not be passthrough entities with no ability to oversee 
contractors hired to do the IG's job.
    I am hopeful my Democratic colleagues can stop the partisan 
attacks on the Trump administration and focus on ensuring our 
inspectors generals are able to conduct robust oversight to 
better hold individuals accountable for wrongdoing.
    I yield back my time.
    Chairwoman Maloney. I now recognize Mr. Connolly for two 
minutes for an opening statement.
    Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman, and thank you so 
much for holding this hearing on such an important subject.
    Our Subcommittee on Government Operations held a critical 
hearing on this subject just last week. The IGs lead offices 
and recover overpayments by government agencies. They identify 
risks and program improvement areas and root out fraud, waste, 
and abuse and gross mismanagement.
    As I noted at that hearing, in Fiscal Year 2020 alone, the 
75 Federal offices of the Inspectors General collectively 
identified $33.3 billion in potential savings from audit 
reports and $19.7 billion actually recovered, amounting to a 
$17 return for every dollar we actually invest in the IGs. 
Their independence is critical.
    President Trump executed a rash of politically motivated 
retaliatory personnel moves against Federal IGs who were 
investigating actions of his administration. Mr. Trump would 
not say why he was removing these IGs, but the motivation was 
fairly clear. It was blatant retaliation. Mr. Trump would 
remove an IG and replace him or her with his own political 
appointee, sometimes dual hatting an individual who would 
concurrently serve within the agency he or she was ostensibly 
assigned to oversee.
    As the GAO testified, the independence of IGs is critical, 
absolutely critical, to their effectiveness and to transparency 
and accountability. The legislation that we're looking at, that 
we're introducing, is designed to do just that. It protects 
whistleblowers. It protects the independence of IGs, and 
codifies how an IG could be removed and strengthens their role, 
which will help the American taxpayer and make our government 
more accountable and efficient. I support the legislation in 
front of us and look forward to the hearing.
    I yield back. Thank you, Madam Chairwoman.
    Chairwoman Maloney. The gentleman yields back.
    I would like to introduce our witnesses. Our first witness 
is James-Christian Blockwood, who is executive vice president 
at the Partnership for Public Service. Next, we will hear from 
Elizabeth Hempowicz, who is the director of Public Policy at 
the Project on Government Oversight. And we will hear from Rudy 
Mehrbani, who is senior advisor at the Democracy Fund. And last 
but not least, we will hear from Zack Smith, who is a legal 
fellow at The Heritage Foundation.
    The witnesses will be unmuted so we can swear them in.
    Please raise your right hands.
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that the witnesses answered in the 
affirmative.
    Thank you. Without objection, your written statements will 
be made part of the record.
    With that, Mr. Blockwood, you are now recognized for your 
testimony. Mr. Blockwood.

    STATEMENT OF JAMES-CHRISTIAN BLOCKWOOD, EXECUTIVE VICE 
           PRESIDENT, PARTNERSHIP FOR PUBLIC SERVICE

    Mr. Blockwood. Thank you, Chairwoman Maloney, Ranking 
Member Gibbs, and members of the committee, for inviting me 
here today. I'm James-Christian Blockwood, executive vice 
president at the nonpartisan, nonprofit Partnership for Public 
Service. Our mission is simply to make government work better 
and inspire people to serve. I welcome the opportunity to be 
here today to discuss with you about accountability and 
transparency in government and how progress on these goals is 
necessary to the modernization and effectiveness of government.
    Public trust in the Federal Government has been near 
historic lows for more than a decade. To increase this level of 
trust, we must work harder to show the American people that 
their government is being held accountable through oversight 
and the checks and balances that our Constitution envisions. 
Transparency helps preserve liberty by letting the American 
people know how decisions are being made and who is making 
decisions on their behalf in our democratic system.
    The topics this committee will discuss today, ranging from 
preservation of government records to the role of inspectors 
general to the protection of whistleblower rights, are all 
areas where, in the past, after deliberation and debate, this 
committee has led Congress to enact bipartisan legislation.
    Through our work at the Partnership, we strive to ensure 
the most competent and qualified individuals are in critical 
policy roles, that the American people know who is serving 
them, and the executive and legislative branches fulfill their 
mutual roles in filling key positions in government.
    There are a few areas that I would like to highlight today. 
First, Congress needs to take on the task of updating the 
Vacancies Act. The statute was last updated in 1998 and has 
shown itself across administrations from both parties to be 
confusing and often ineffective. A revisiting of the law on 
vacancies is necessary both to preserve the advice and consent 
role of the Senate and to ensure the effectiveness of 
government during inevitable vacancies of senior political 
positions.
    The Accountability for Acting Officials Act would make some 
commonsense updates to the law. For example, clarifying that it 
applies when an official is fired and ensuring Congress gets 
timely notification of when vacancies occur and often who 
temporarily fills those positions.
    Second, the American people deserve better transparency 
into who is serving them in the Federal Government, both in 
political positions and top career positions. This information 
is currently produced once every four years in what is known as 
the Plum Book, the same way it has been produced since the 
1950's. And every four years, it's outdated by the time it's 
published.
    The Plum Book needs to be modernized, providing real-time, 
online information on how our government is organized and who 
is in key policymaking positions.
    Third, the partnership asks the committee to consider that 
one reason why there may be so many vacancies and it's 
difficult to keep up with appointees is that we simply have too 
many political appointees in our government. Any incoming 
President is responsible for filling more than 4,000 political 
appointees, of which 1,200 require Senate confirmation. This 
number of appointees is higher than in any other modern 
democracy.
    The Partnership urges the Congress to take up the same 
effort it did in 2011 when it worked on a bipartisan basis to 
reduce the number of appointees subject to Senate confirmation.
    Thank you again for the opportunity to discuss these and 
other issues related to accountability and transparency.
    Chairwoman Maloney. Thank you.
    Mr. Blockwood. The Partnership for Public Service stands 
ready to help you find nonpartisan, commonsense solutions to 
the major management challenges facing our government. And in 
light of Public Service Recognition Week, please allow me to 
extend my thanks to all public servants around our country. 
And, of course, Members of Congress and your staff are also 
public servants, so I thank you for your service as well.
    I can think of no better way to start Public Service 
Recognition Week than by having today's discussion on how we 
can make government better serve the people. I'd also like to 
thank the team at the Partnership that helped me prepare for 
this hearing. I look forward to the discussion and answering 
any questions you may have.
    Chairwoman Maloney. Thank you so much. The gentleman yields 
back.
    Ms. Hempowicz, you're now recognized for your testimony.

 STATEMENT OF ELIZABETH HEMPOWICZ, DIRECTOR OF PUBLIC POLICY, 
                PROJECT ON GOVERNMENT OVERSIGHT

    Ms. Hempowicz. Chairwoman Maloney, Ranking Member Gibbs, 
and members of the committee, thank you for inviting me to 
testify today.
    The legislation before you is critical if Congress is to 
address the public's growing concern about government 
corruption. I will focus my remarks today on how these 
proposals will address gaps in current law that leave 
whistleblowers exposed to retaliation, undermine the work of 
our inspectors general, and leave the executive branch exposed 
to corruption and instability.
    As this committee knows, whistleblowers expose wasteful or 
fraudulent government spending, often leading to the recovery 
of public money. Their disclosures also alert us to matters 
critical to public health or where the government is abusing 
its power against the people. But whistleblowers are often met 
with retaliation, and, unfortunately, the legal system meant to 
deter and correct retaliation is not working. At the end of the 
day, we ask whistleblowers to put their livelihoods on the line 
with no guarantee that they will be protected by the law.
    The bipartisan Whistleblower Protection Improvement Act 
contains numerous provisions that would address some of the 
most consequential gaps in current law. If it is enacted, 
whistleblowers will be able to fight back against many 
retaliatory investigations and would be able to petition a jury 
of their peers for relief from retaliation.
    Passing this legislation will also allow whistleblowers to 
protect their anonymity more effectively. As you know, 
anonymity is the single best way to protect against 
whistleblower retaliation.
    Next, let's consider the role that inspectors general play 
in the fight for government accountability. Their work 
conducting oversight over executive branch programs and 
management continually results in significant savings for 
taxpayers. IGs also expose when political appointees or civil 
servants corruptly abuse the power of the executive branch. 
However, most IGs don't have the authority they need to compel 
cooperation with their investigations outside of their agency 
walls. That means that to evade accountability, a corrupt actor 
only needs to leave government to effectively shut down an IG 
inquiry into their behavior.
    Furthermore, IGs themselves are also exposed to retaliation 
because they can be fired by the President for any reason. This 
makes no sense, especially when you consider how exposing 
government inefficiency and corruption is unlikely to win the 
favor of political leadership.
    While some may argue that protecting IGs from retaliatory 
removals would be unconstitutional, I want to note that the 
Supreme Court recently had a chance to weigh in on the matter 
more broadly. The Court's majority went out of its way to 
highlight that in some cases, these types of protections are 
appropriate. Our analysis is that IGs are one such office where 
they would be appropriate and constitutional, and the 
nonpartisan congressional Research Service agrees. Passing the 
IG Independence and Empowerment Act would not only grant IGs 
the authority it needs to aggressively expose instances of 
government corruption but to also make it less dangerous to 
exercise the independence required of them to fulfill their 
important missions.
    And, finally, I want to talk about how weaknesses in the 
law that governs how the President selects temporary leaders 
for vacant executive branch offices leaves our government 
susceptible to corruption and exposed to costly legal 
challenges. The Vacancies Act was meant to protect both the 
President's ability to keep government working when there are 
vacancies and to protect the Senate's constitutional advice and 
consent role. But the law's loopholes now leave the executive 
branch exposed to exactly the kind of concentrated appointment 
power that our Founders intended to prevent. These legal gray 
areas also have a major practical impact, since actions taken 
by an individual whose appointment is ultimately judged to be 
invalid under the Vacancies Act can be voided by our courts.
    The Accountability for Acting Officials Act would address 
some of the most important gray areas in the Vacancies Act. It 
would encourage the timely nomination of qualified individuals 
from the White House and clarify the boundaries to the 
executive's power to appoint temporary leadership. The modest 
reforms in this bill would restabilize the legitimacy of 
government without improperly limiting the President from 
carrying out their responsibilities.
    To recap, right now, we ask Federal whistleblowers to put 
their careers on the line to expose government wrongdoing, even 
though we know the legal system will not adequately protect 
them. We expect our internal executive branch watchdogs to root 
out corruption without the tools they need to do so and while 
they're exposed to retaliation, and we have an executive branch 
that has too expansively interpreted its authorities under the 
Vacancies Act in a way that leads our executive branch exposed 
to corruption.
    By addressing these problems, you can show your 
constituents that you are serious about making sure that the 
executive branch of government truly works for the people.
    I strongly urge you to pass the legislation I highlighted 
today and in my written testimony. Doing so would lead to a 
more effective, ethical, and accountable Federal Government 
that safeguards constitutional principles, a goal that I think 
is shared by the members of this committee, regardless of 
political affiliation.
    Thank you for holding this important hearing. I look 
forward to answering your questions.
    Chairwoman Maloney. Thank you.
    Mr. Mehrbani, you are now recognized for your testimony.

   STATEMENT OF RUDY MEHRBANI, SENIOR ADVISOR, DEMOCRACY FUND

    Mr. Mehrbani. I'd like to thank Chairwoman Maloney, Ranking 
Member Comer, and the entire community for the opportunity to 
testify in support of reforms to enhance accountability and 
transparency in the Federal Government.
    These are unprecedented times. In addition to a global 
pandemic, rising economic inequality, a national reckoning with 
racial injustice, and a climate on the brink of collapse, the 
Nation is facing a crisis of confidence in its most 
foundational principle, the rule of law.
    It's not some theoretical concept. The rule of law 
underpins constitutional values that are vital to how 
government operates, ensuring that no one is above the law, 
that justice is administered without favor or prejudice, that 
the powers of government work for the benefit of the American 
people, not for the profit of those wielding that power.
    But we depend on government officials to uphold these 
values, and they don't police themselves. We need 
accountability and transparency measures as a backstop. That's 
why our Constitution extended its system of checks and balances 
to personnel appointments, to ensure the rule of law and the 
spirit of public service is preserved by those in government.
    None other than Alexander Hamilton, known for believing in 
a strong executive, said that conditioning the President's 
appointment powers on the Senate's advice and consent, quote, 
would be an excellent check and prevent the appointment of 
unfit characters, end quote, and that a President left to his 
own devices would fill offices based on, quote, private 
inclinations and interests, end quote.
    As you know, Congress has supplemented the system with 
legislation to protect against abuse and corruption. Reforms 
were adopted following periods of abuse in our history, like 
the Ethics in Government Act, Inspector General Act, and the 
Federal Vacancies Reform Act. Unfortunately, Presidents have 
increasingly exploited loopholes in these laws for their own 
personal, financial, or political benefit.
    To respond, we need a variety of reforms to close these 
loopholes and shore up the guardrails that protect against 
abuse. The bills being considered by this committee today, 
together with other key ethics and anticorruption reforms, 
namely those in the Protecting our Democracy Act and the For 
the People Act, are essential to restoring faith in our 
government.
    Many consider the prior four years a time of unprecedented 
abuse by the executive branch. Others would rightly point out 
that Presidents and government officials have overreached 
before and that weaknesses in our system predate 2016. Frankly, 
we don't need to agree on how to apportion blame to effectively 
respond. Take vacancies and the overreliance on acting 
officials as an example. We can all agree a few things are 
true. First, Presidents are increasingly turning to acting 
officials to fill vacancies. President Trump relied on acting 
officials to serve in his Cabinet more in his first three years 
than the entire Presidencies of each of the past five 
Presidents.
    Second, the Senate confirmation process takes twice as long 
as it did when President Reagan was in office, creating 
perverse incentives for Presidents trying to field their team.
    And, third, Presidents are turning to creative and weakly 
problematic maneuvers [inaudible] moves that are inconsistent 
with the spirit of the Federal Vacancies Reform Act, if not the 
letter of the law.
    Why does this matter? It's problematic and disruptive for 
government operations, and it eviscerates the system of checks 
and balances that serves to ensure appointees are qualified and 
accountable. It's worse when these abuses extend to inspector 
general positions. IGs are meant to serve as nonpartisan, 
independent watchdogs. Installing IGs with perceived, if not 
real conflicts of interest, undercuts their role and raises 
doubts about the government's commitment to combating 
corruption.
    The reforms under consideration by this committee would 
reduce these kinds of abuses and provide democratic 
accountability in the future. For example, the Accountability 
for Acting Officials Act, introduced by Representative Porter, 
puts forward commonsense reforms to ensure that serving in the 
most powerful positions in the executive branch have to report 
to Congress, and it limits the length of time officials may act 
as agency heads to 120 days.
    From my experience running a Presidential personnel office, 
120 days to fill these leadership positions is a reasonable 
expectation. And when the President nominates someone, the 
Senate should duly consider them, which is why I also urge 
Congress to couple reforms to the Vacancies Act which reforms 
to the confirmation process outlined in my written testimony.
    To be clear, the FVRA is complicated, but I'd argue that in 
most cases, the complexities stem from ambiguities, and it's 
these ambiguities that have been taken advantage of. The 
reforms would provide more clarity and transparency.
    I'd also like to close by saying that it's fitting for this 
committee to have this hearing today at the start of Public 
Service Recognition Week. Public servants deserve our 
gratitude. In just the last few months, they have met immense 
logistical challenges to support the delivery and distribution 
of 100 million vaccines to American people across the country, 
demonstrating the government can still work for the people. 
It's the result of political and career leaders having a 
singular focus.
    For government to meet the challenges of our time, we need 
a system that can ensure it can maintain this kind of 
dedication to the public good. The reforms under consideration 
by this committee would help do exactly that, and I urge this 
committee to adopt them.
    Thank you, and I look forward to your questions.
    Chairwoman Maloney. Thank you.
    [Inaudible] Mr. Smith.

 STATEMENT OF ZACK SMITH, LEGAL FELLOW, EDWIN MEESE III CENTER 
      FOR LEGAL AND JUDICIAL STUDIES, HERITAGE FOUNDATION

    Mr. Smith. Good morning.
    Good government, accountability, and transparency are all 
laudable goals, but as the committee considers many of the 
proposals before it today, I can't help but think of the words 
that the late Justice Antonin Scalia wrote more than 30 years 
ago. When the Supreme Court was asked to consider the 
constitutionality of the independent counsel provisions of the 
Ethics in Government Act of 1978, which allowed for the 
appointment of an independent counsel to investigate and to 
prosecute certain high-ranking government officials, Justice 
Scalia in a lone dissent, said, quote: Frequently, an issue of 
this sort will come before the Court clad, so to speak, in 
sheep's clothing, but this wolf comes as a wolf.
    So too today, there are wolves lurking among the proposals 
presented for this committee's consideration. As with so many 
things in life, the goals are good, but the devil is in the 
details.
    So, when examining these details, I encourage the committee 
members to keep in mind two overarching considerations, one 
legal and one practical. Simply put, they're these: That each 
member of the committee has an independent duty to ensure 
themselves of the constitutionality of each proposed reform and 
to ensure that each reform actually promotes good government.
    So, let's start with the constitutional. It's undisputed 
that our Founding Fathers created a system of government with 
checks and balances. In James Madison's famous words, ambition 
must be made to counteract ambition. Unless you think this is 
some abstract idea without any impact on our day-to-day lives, 
it's this separation of powers, these checks and balances, that 
help ensure all of our other liberties.
    Now, you may be saying fair enough, we agree, but what does 
this have to do with the proposals before the committee? Well, 
one proposal, for example, would make inspectors general 
removable only for cause. Even a recent CRS report, which 
examined this issue and examined the constitutionality of it, 
said it could be constitutionally questionable to place for 
cause removal restrictions on certain IGs who would be 
impermissibly insulated from Presidential control by multiple 
layers of removal protections. The current bill doesn't reflect 
this concern and, at a minimum, it should.
    But more to the point. Given the uncertainty and the 
separation of powers concerns, would the potential damage to a 
foundation principle of our system of government be worth any 
corresponding benefits? After all, inspectors general are not 
the only mechanism that Congress has for combating fraud, 
waste, and abuse, or for seeking to put good government on a 
firmer footing. Congress can conduct oversight hearings. It can 
subpoena witnesses to appear before it. It can receive 
whistleblower complaints. And, most importantly, it can even 
control the power of the purse.
    Then there's the broader concern that many of these 
proposals are meant to look good without actually accomplishing 
much in the way of substantive change. In that way, some of 
these proposals can actually do more harm than good for two 
reasons.
    First, the bills would place new responsibilities on 
government personnel, including IG personnel, without providing 
additional resources to carry out their functions. It sets them 
up for failure.
    And, second, many of these bills deceive the public into 
believing these proposals tackle pressing concerns when, in 
fact, they simply give the appearance of taking action against 
real or perceived problems.
    Then, of course, there's concerns about the law of 
unintended consequences. One proposal today that seeks to 
combat whistleblower retaliation would add to the list of 
prohibited practices the opening of any investigations as a 
result of a protected disclosure. It's a noble goal, but it 
doesn't take much imagination to see how this could be 
manipulated in everyday practice.
    Now, although this may seem farfetched, I have experience 
with this. Early in my career as an assistant United States 
attorney, I handled civil litigation on behalf of the United 
States, including employment litigation. And it wasn't uncommon 
for problematic employees who expected they would be 
disciplined to file equal opportunity complaints, whistleblower 
complaints, union grievances, or some combination of those in 
efforts to set up a retaliation claim for whenever their 
employer took action against them. By engaging in such tactics, 
the problematic employees' underlying issues often went 
unaddressed, and it created a chilling effect for the 
supervisor to address the conduct of other problematic 
employees too.
    Of course, this isn't to suggest that every whistleblower 
or even most whistleblowers have performance or conduct issues. 
Many come forward for noble reasons and should be applauded, 
but we must be honest about the current system's shortcomings 
which can have an equally pernicious effect on good government 
and accountability.
    And, in closing, while my testimony today may be 
interpreted by some as offering a slightly discordant note, 
that's not my intention. I share this committee's desire to 
improve government accountability and transparency, but just as 
we should demand that government officials perform their duties 
in an ethical manner, we must ensure that any oversight of 
their conduct complies with the Constitution, actually promotes 
good governmental policy, and avoids, to the maximum extent 
possible, the law of unintended consequences.
    Thank you for this opportunity to testify. I welcome your 
questions.
    Chairwoman Maloney. Thank you. The gentleman yields back.
    I now recognize myself for five minutes for questions.
    During Sunshine Week, I introduced several legislative 
reforms aimed at making government more transparent because I 
strongly believe that transparency is the key to holding 
agencies and senior officials accountable. I introduced, along 
with Ranking Member Comer, the Federal Advisory Committee 
Transparency Act, which would make the advisory committees that 
provide agencies with policy advice disclose who is serving on 
them.
    Mr. Mehrbani, do you believe that the public has the right 
to know who is serving on Federal advisory committees? Mr. 
Mehrbani.
    Mr. Mehrbani. Thank you for your question, Chairwoman 
Maloney. Federal advisory committees play an important function 
in the Federal Government. They provide expert science advice 
to committees, to agencies on a wide range of issues. And it's 
important that the public understands if there are any 
conflicts of interest, for example, that members on these 
advisory committees may have. And I think that the reforms that 
you and Ranking Member Comer have put forward would be strong 
steps toward ensuring that kind of transparency and 
accountability. And I think that the history that I've detailed 
somewhat in my written testimony indicate the need for these 
kinds of reforms, and I absolutely support it.
    Chairwoman Maloney. The bill would also require that 
advisory committee members disclose any financial conflicts of 
interest. So, Mr. Mehrbani, do you think it's important for the 
public to know if an expert serving on an advisory committee 
has something to gain from making a particular recommendation?
    Mr. Mehrbani. I do. And that's the similar kind of motive 
that applies to the ethics rules for other Federal appointees. 
Now, in some cases, it's completely understandable that you 
would want to have somebody who is representative of a group of 
constituents or even an industry, for example, that might 
create a conflict of interest. But when the need for that 
individual's voice to be included in the committee outweighs 
the potential for a conflict, there's actually mechanisms in 
the law that allow for designated agency ethics officials to 
certify that they--that that conflict exists so it doesn't 
create any sort of liability issues.
    But, more importantly, it allows the public to rec---to see 
that there's balance on these advisory committees. And, 
frankly, I have to commend President Biden for issuing an 
executive order that actually creates an interagency task force 
to look at some of these issues. But as you know, this 
committee should not have to depend on a President to act, 
which is why I think that this legislation is so important.
    Chairwoman Maloney. Thank you.
    Ms. Hempowicz, I'd like to turn to you. Another 
transparency reform I introduced is the Presidential Records 
Preservation Act, which would require the President and the 
President's senior advisors to create and preserve records of 
official activities.
    If we don't require the President or his senior advisors to 
document their activities, do you think we're missing key 
information about how decisions are made?
    Ms. Hempowicz. Absolutely, Chairwoman.
    Chairwoman Maloney. Mr. Connolly and Ms. Speier join me 
today in introducing a package of reforms to protect 
whistleblowers, called the Whistleblower Protection Improvement 
Act. Whistleblowers disclose important information to Congress, 
but they also provide important information to the public. One 
example is the information that a former HHS scientist, Dr. 
Rick Bright, shared on his concerns with the Trump 
administration's strategy on fighting the pandemic.
    Ms. Hempowicz, do you believe that strengthening 
protections against retaliation for whistleblowers would 
ultimately lead to more transparency and ultimately to better 
policy?
    Ms. Hempowicz. Yes, Chairwoman. Absolutely. I think, you 
know, strengthening the system for whistleblowers, right now, 
the system is broken, and so I think it is actually serving as 
a deterrent from further whistleblowers coming forward and 
exposing waste, fraud, and abuse within the Federal Government.
    And I also just want to highlight that without 
whistleblowers, we wouldn't know about the backlogs at the VA. 
We wouldn't know that our servicemembers in Iraq didn't have 
access to tanks that were sufficiently protecting them from 
roadside bombs. And so, the work that whistleblowers do, not 
only returns money to the Federal Government, but it keeps our 
troops and our veterans safe. You know, there's no--there's 
just--it's difficult to describe the value that whistleblowers 
play, but it is far beyond just financial.
    Chairwoman Maloney. I've also introduced, along with Mr. 
Connolly and Mr. Sarbanes, a bill to modernize and update the 
Plum Book. The PLUM Act would require the Office of Personnel 
Management to maintain a publicly available directory of senior 
government leaders.
    These are just some of the bills I'm hoping to explore 
further today. I urge my colleagues to support these measures 
that would make government more open and accountable.
    I now recognize Mr. Gibbs for five minutes.
    Mr. Gibbs. Thank you, Chairwoman.
    Mr. Smith, the Presidency and the Vice Presidency, as you 
know, are constitutionally created offices with powers that are 
separate from those of Congress. Are there constitutional 
issues implicated in an attempt by Congress to legislate 
recordkeeping requirements applicable to the President and Vice 
President and their senior officials? Mr. Smith.
    Mr. Smith. There certainly could be, Congressman. And more 
to the point, you know, I think it is worth noting that, as you 
mentioned, the President and Vice President are different than 
many of the statutorily created agencies and offices set up by 
Congress. And with the records keeping requirement for the 
President and Vice President, one of the main concerns should 
be what's the enforcement mechanism going to be for these acts, 
and also, what about the increased administrative burdens on 
both the Presidency and then also on the national archivists, 
who will be responsible for maintaining and ensuring access to 
these records. And so, I think both of those considerations 
certainly deserve more thoughtful, more thorough discussion as 
these bills are being considered and working their way through 
Congress.
    Mr. Gibbs. Thank you.
    Mr. Mehrbani, you were President Obama's White House--part 
of the White House Counsel and his personnel office. During the 
Obama Administration, there was a lot of controversy about 
recordkeeping for emails, including emails that could have 
passed between President Obama and his Secretary of State, 
Hillary Clinton.
    Do you believe the terms of the Presidential Records 
Preservation Act should apply--or should they apply to 
President Obama's emails, including emails to Secretary 
Clinton?
    Mr. Mehrbani. I think that the Presidential Records Act 
should apply to communications with the President. The bill 
today, I think, would bring the Presidential Records Act in 
line with existing legislation that applies to Federal 
agencies. So, I'm not certain that the constitutional questions 
might create some sort of additional problematic 
responsibilities for the White House here.
    Mr. Gibbs. So, when you were, you know, White House 
counsel, would you have recommended to President Obama to 
support or oppose the Presidential Records Preservation Act?
    Mr. Mehrbani. Well, I'd--first, I'd like to say I was not 
White House counsel. I was an associate counsel to President 
Obama. And if I were in the White House and I saw this piece of 
legislation, given the potential for it to ensure that records 
are maintained by the White House, I actually would recommend 
its adoption, sir.
    Mr. Gibbs. OK. Well, Mr. Smith, there's been significant 
evidence that former California Secretary of State Alex Padilla 
misused the Help America Vote Act funds to contract with a 
major political firm of Joe Biden's Presidential campaign. The 
Election Assistance Commission and the IG stated to committee 
Republicans that the allegations for misuse were credible, and 
the EAC director, Inspector General testified before the 
Subcommittee on Government Operations two weeks ago and stated 
that the office is working on contracting a third party to 
audit the contract six months after the original contract.
    Would you agree that the IGs should be investigating the 
allegations of wrongdoing quickly?
    Mr. Smith. Well, I think that particular incident 
highlights two points. One is what we were talking about 
earlier. You don't want to set the IG offices up for failure by 
providing them with additional responsibilities without 
corresponding resources.
    And then the second point, I think we need to rethink what 
it means to have success in terms of an IG investigation. My 
colleague at Heritage, Paul Larkin, has written about this in 
law enforcement context. And I think a similar conversation 
could be had in the context of inspectors general and 
government oversight. What does it mean to have the successful 
oversight investigation?
    Mr. Gibbs. So, do you think this committee, Oversight 
Committee, should be investigating these allegations of 
wrongdoing since the IG and the EAC offices have shown that 
maybe they're not able to do so?
    Mr. Smith. Well, they're certainly serious allegations, and 
from my understanding of the situation, that IG office is 
underfunded and understaffed and is having a difficult time 
investigating those claims. And so, again, I think any reforms 
proposed would need to make sure that we are giving the IGs and 
other oversight entities the tools they need for success and 
not just passing legislation, again, that would look good 
without actually making any substantive changes.
    Mr. Gibbs. Consolidating IG offices, would that be an 
efficient way to do it if they don't have the resources in the 
smaller offices?
    Mr. Smith. It's certainly a potential path that could be 
useful to explore further. Also making criminal referrals for 
investigation, obviously, if the Department of Justice or other 
entities become involved. You know, there are many potential 
paths that could solve this problem. But, again, I think in the 
context of today's hearing, you don't want to set any of the IG 
offices up for failure.
    Mr. Gibbs. Thank you. I'm out of time.
    I yield back, Madam Chair.
    Chairwoman Maloney. The gentleman yields back.
    The gentlewoman from the District of Columbia, Ms. Norton, 
is recognized for five minutes.
    Ms. Norton.
    Ms. Norton. Thank you, Madam Chair.
    I'm interested in whistleblowers, and my question is for 
Ms. Hempowicz. I'm interested in whistleblowers because they 
play a critical role for Congress itself and particularly for 
this committee. We recently had a bipartisan investigation when 
a whistleblower came forward from the Transportation Security 
Administration, for example.
    Your organization sees whistleblowers who provide 
information, get severe retaliation, and that's where my 
question is.
    For example, there was a very high-profile example when a 
witness was retaliated for cooperating with congressional 
requests for documents or testimony. One of the most recent 
high-profile examples was Lieutenant Colonel Alexander Vindman, 
who was reassigned and had his promotion delayed. I think we 
all remember that one.
    Does it concern you that there may be a chilling effect on 
the willingness of Federal employees to cooperate with Congress 
because they have seen these public cases of retaliation?
    Ms. Hempowicz. Yes, Congresswoman. Absolutely. I think that 
it may have a chilling effect, and I think you may already be 
seeing that. I think, you know, it's important to note that 
there is a legal prohibition against interfering with anyone's 
ability to work with a Member of Congress or to speak with a 
Member of Congress under the Lloyd-La Follette Act, and that 
should apply to whistleblowers, and yet there's no enforcement 
mechanism.
    And so, places like this, I think, in particular where 
there's a legal avenue to pursue and to use as a whistleblower 
but there's no way to enforce your protections, if you use that 
legal avenue, I think what we do is we just incentivize people 
to work outside of the proper channels. And I think that's 
where we can see things like leaking classified information if 
whistleblowers don't feel like they will be protected if they 
use the protected channels that Congress has laid out for them, 
or they just won't blow the whistle at all and then you won't 
have the benefit of their experience.
    Ms. Norton. The Whistleblower Protection Improvement Act 
we're putting forward would limit public disclosure of the 
identity of an employee who blows the whistle on a Federal 
agency. Why is this important? And what impact would it have on 
other whistleblowers if the identity of a whistleblower is 
disclosed by an agency?
    Ms. Hempowicz. Thank you. Thank you so much for that 
question. I think, you know, the committee knows well the value 
of allowing a whistleblower to be anonymous if they want to, 
because the committee, both majority and minority, you on your 
website say if a whistleblower comes to the committee, we will 
protect your identity. And I think that's because you know that 
protecting a whistleblower's anonymity is the No. 1 way to make 
sure they won't be retaliated against. If their supervisors or 
people at their agencies don't know who they are, it's 
impossible to retaliate against a whistleblower.
    Once it's--you know, but right now, the law does not 
prevent people who know the identity of a whistleblower from 
sharing that identity with others who would--may be able to 
retaliate against that whistleblower, or breaking their 
anonymity may also just be a form of retaliation itself. You 
know, if you are a public servant and your name is now 
everywhere all over Twitter as somebody who is a traitor, you 
know, I think what happens is we tell future whistleblowers, 
don't come forward, because instead of addressing the issue 
that you're blowing the whistle on, we're going to drag your 
name through the mud and ruin your life instead.
    Ms. Norton. Could I further ask you, how would the 
Whistleblower Protection Improvement Act, going forward, help 
correct the existing system related to how Federal employees 
can provide information directly to Congress?
    Ms. Hempowicz. Well, it would allow whistleblowers to 
enforce their protections for speaking with Congress, and so 
they'd be able to have the benefit of whistleblower case law 
saying, you know, you abused a protected channel and now you're 
afforded this legal system, which I will say is not working as 
well as it could, but there are other provisions in the bill 
that would fix that legal system. And so, I think this bill 
really--I couldn't encourage Congress to pass it more. I think 
it's critically necessary, and I think it really does address 
some of the biggest loopholes and most consequential loopholes 
in our whistleblower laws today.
    Ms. Norton. Madam Chair, the whistleblowers really help 
Congress itself conduct effective Federal oversight, so I'm 
urging all my colleagues to support this bill to protect the 
employees who are courageous enough to come forward. And I 
yield back. Thank you very much for this important hearing.
    Chairwoman Maloney. The gentlelady yields back.
    And the gentleman from Wisconsin, Mr. Grothman, is 
recognized for five minutes.
    Mr. Grothman.
    Mr. Grothman. Thank you.
    I'm going to start out with a question here to Mr. Smith. 
There was some testimony that I thought sounded good on its 
face until you think about it a little bit, and that concerned 
the number of appointees that every President gets to fill out 
his bureaucracy. I believe we were told that there are 4,000 
appointees he has, of which 1,200 have to be confirmed. And the 
implication was that we should have less of this, presumably 
replaced by more civil service people, by more career people, 
and less people who are immediately appointed.
    I kind of look at it the other way. I want you to comment 
on it. I talked to one appointee of the Trump administration. 
She felt she had 2,000 people under her, and in general, she 
felt the bureaucracy was hostile to her reforms. I thought how 
difficult it was to have the imprint of a President on an 
agency if you've, say, got this subagency of 2,000 employees, 
and one person, just the one who is supposed to be able to 
effect change.
    Could you comment on that, Mr. Smith? Do you feel this is a 
good or bad thing that really, again and again, we put people 
in positions in which they apparently have even over a thousand 
people under them and have very little ability to discipline 
them or control them?
    Mr. Smith. Yes. Thank you for the question, Congressman. I 
think a couple of considerations go to your question. The first 
is, you know, the Framers of our Constitution certainly 
envisioned that the President would appoint high-ranking 
Federal Government officials with the advice and consent of the 
Senate.
    And so, two points that I think others have raised that 
would help alleviate some of these concerns would be if 
administrations quickly put up nominees for many of the senior 
positions in the Federal Government, and then if the Senate 
would quickly give hearings to those executive branch nominees. 
You know, someone made the point earlier that over the past 
several years and administrations, the average time it's taken 
to confirm executive branch nominees has increased greatly. And 
so, I think addressing some of those concerns, the way in which 
the current nomination and confirmation process works, could be 
as effective at alleviating many of the concerns you raise.
    Mr. Grothman. Can you see, though, the potential danger or 
the difficulty? When I vote for a President, I expect that 
Presidency to a certain extent have a certain vision for his 
administration. Do you see that--apparently, the implication 
was in the testimony that even 1,200 people who have to be 
confirmed or 4,000 appointees, is clearly too much, and 
presumably, we ought to have more civil service type appointees 
and have less employees picked by the President.
    Do you see the frustration there is with the swamp if, say, 
one of President Trump's appointees winds up in charge of an 
agency in which they have a thousand people under them, and 
given President Trump's mandate, insofar as he had a mandate, 
was to kind of cleanup the swamp, how difficult it would be for 
this person to have any--implement any change? Do you see what 
I'm saying? It's one of the problems with the government.
    Mr. Smith. I do. And, certainly, to the extent you convert 
positions from being politically appointed into civil service 
positions, the risk always exists that those positions will be 
less politically accountable. And to the extent you convert the 
positions into ones that do not need the Senate's advice and 
consent, that, in some ways, bumps up against concerns, again, 
for the system of government that was established by the 
Framers of our Constitution.
    And so, certainly, a fruitful area for reform, again, would 
be examining how the current confirmation process works and 
suggesting potential mechanisms to make sure that works 
efficiently.
    Mr. Grothman. Yes. I'll just kind of wrap it up with a 
statement, Mr. Smith. If you are--OK. First of all, 
overwhelmingly, the bureaucracy, insofar as it's partisan, I 
realize, you know, we have the Hatch Act [inaudible] overtly 
partisan. But here in the District of Columbia, like, President 
Trump got five percent of the vote, which indicated very few 
Federal employees were voting for President Trump.
    If you are appointed to run a group of a thousand people, 
and you can't even have one person under you who you know for 
sure is loyal to you, it makes it almost impossible to 
implement the changes in government that you want.
    Thank you for doing the extra few seconds.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Massachusetts, Mr. Lynch, is now 
recognized for five minutes.
    Mr. Lynch.
    Mr. Lynch. Thank you, Madam Chair. And I want to thank the 
witnesses as well for their good work.
    First of all, I certainly support, Madam Chair, your 
legislation, as well as the legislation that has been earlier 
referenced being sponsored by Mr. Connolly, Mr. Sarbanes, and 
Ms. Porter. I fully support those measures.
    To our witnesses, you know, back in 2008, Congress, in a 
very bipartisan moment, created the Wartime Contracting 
Commission, and it was modeled on the Truman Commission back in 
1941. It was bipartisan in nature. It worked across several 
different administrations, both Democratic and Republican. And 
during the years 2008 to 2011, it actually turned up with about 
between $30 billion and $60 billion in waste, fraud, and abuse 
that was uncovered and did a very good job. Unfortunately, in 
2011, it expired. It had a sunset provision in there and it 
expired.
    But now, with the way this Authorization for Use of 
Military Force works, it is not limited in time. It is not 
limited by territory. And yet we have a defense budget that is 
approaching a trillion dollars. And as has been pointed out by 
a few of the witnesses, it's not enough to just give 
responsibility to IGs or other groups. You have to fund that. 
You can't just pile that responsibility on top of everything 
they're already doing.
    So, I have a bill that would reauthorize the Wartime 
Contracting Commission because of the expenditures that are 
going forward, because of the preexisting Authorization for Use 
of Military Force with no limitations on time or territory. And 
I'm just wondering, you know, from your perspective, Ms. 
Hempowicz or Mr. Mehrbani or Mr. Smith, do you think that would 
be helpful? Is that the type of response, or is there something 
else that we might be doing to really look at the huge 
expenditures?
    We've got massive waste. We've had previous hearings in 
this committee about Defense Department expenditures regarding 
the F-35 and other very expensive weapons systems that are not 
responsive to the threat, first of all. They've just been 
hanging on. They're sort of zombie programs, and they're not 
really developing the progress that we would hope for after 
injecting billions of dollars into these weapons programs.
    So, with the remaining two minutes, I'd like to hear from 
our witnesses. Ms. Hempowicz, if you might start.
    Ms. Hempowicz. Yes, sir. Thank you, Congressman Lynch. As 
you know, we put--the Project on Government Oversight 
wholeheartedly endorses your legislation to bring back the 
Wartime Contracting Commission. I think in addition to passing 
that legislation, which as you correctly identified, you know, 
has the potential to return billions of dollars in savings to 
the taxpayer, I think, you know, the other proposals in front 
of this committee right now, strengthening whistleblower 
protections, ensuring inspectors general have the resources and 
independence they need to do their jobs and the authorities 
they need to do their jobs, I think they're are also critical 
parts, part of that equation as well.
    Mr. Lynch. Thank you.
    Mr. Mehrbani?
    Mr. Mehrbani. Yes. I think implicit in Ms. Hempowicz' 
statement, which I'll just highlight specifically, is the fact 
that the folks who are running these investigations and are 
leading the inspectors, inspector general offices, also need to 
be an independent, which is why I think the reforms to ensure 
that a President can't install inspectors general, even in an 
acting capacity, that have perceived or real conflicts of 
interest is critically important.
    Mr. Lynch. Great.
    Mr. Smith?
    Mr. Smith. Yes. Thank you for the question. Certainly, 
effective measures to combat waste, fraud, and abuse are always 
welcome. I'm not familiar with the specifics of your current 
proposal, but the concerns about ensuring that these actions 
aren't just for show but they're actually effective in terms of 
accomplishing the goals they're set out to do, I think that's 
very important. And then again, to remember that Congress has 
multiple tools at its disposal, apart from the inspectors 
general, to combat that waste, fraud, and abuse are certainly 
worthwhile to keep in mind.
    Mr. Lynch. Reclaiming my time. I only have 15 seconds left. 
Mr. Smith, to be honest with you, the inspectors general and 
these special commissions are really the tip of the spear. 
Those other things that you're talking about, they get bogged 
down. They really do. So, this is--the full-time work of the 
inspector generals is really far and above, head and shoulders 
above what we might do in committee because we're dealing with 
a thousand different issues. We need it to be somebody's sole 
responsibility and their sole job. That's the difference with 
these inspectors general.
    I yield back, and I thank you for the courtesy.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Louisiana, Mr. Higgins, you are now 
recognized for five minutes.
    Mr. Higgins. Thank you, Madam Chair.
    Improving government accountability and transparency, we 
really ask ourselves, why does America not trust the 
government? Let me share with my colleagues a simple formula. 
Stop oppressing American's freedoms. Reduce the tax burden. 
Reduce the regulatory burden. Stop punishing Americans who 
actually work. Secure our sovereign border. Stop condemning 75 
million Americans who supported President Trump and stop 
spending trillions of dollars of American treasure that we 
don't have.
    We're talking about diving deep into the bureaucracies 
here. I can tell you Americans that I serve and I work for and 
I communicate with want an incredible reduction, the size and 
scope of the Federal Government, in its interference in our 
daily lives. It's a pretty simple formula.
    Mr. Smith, I have two questions for you, sir. According to 
the Founders' intent and under laws like the Inspector General 
Act of 1978, the President has broad discretion to remove and 
replace inspectors general in this case as he deems 
appropriate. Congress' only statutory involvement with the 
appointment and removal of IGs is through the Senate's advice 
and consent. However, under Title I of H.R. 2662, which we're 
discussing today, this bill attempts to curtail the statutory 
authority by limiting the President's Article II power. And I 
say again, the Founders intended for a duly elected President 
to have broad powers within the executive branch.
    Mr. Smith, disregarding what I would say is obvious the 
political intent of this bill, what unintended constitutional 
consequences could come from this? Please explain to America.
    Mr. Smith. Well, thank you for the question. You're 
absolutely right, The Framers of our Constitution intended for 
us to have a government with separated powers among three 
different branches. And so, to the extent that Congress seeks 
to prohibit the President from removing an executive branch 
official, that separation of powers concern is certainly raised 
and implicated.
    Now, in the 230-plus years since James Madison wrote about 
this in the Federalist Papers, Congress has muddied the waters 
to a great extent with that separation of powers, and the 
Supreme Court has spilled a lot of ink discussing what the 
appropriate boundaries are of that separation of powers and 
what restrictions Congress can place on the President's 
abilities to remove officials.
    And, look, I'm certainly not impugning the work of the 
inspectors general. They do important work. They do valuable 
work.
    Mr. Higgins. Yes.
    Mr. Smith. But anytime Congress is placing restrictions on 
the ability of the President to remove an executive branch 
official, while at the same time as these bills propose to do, 
expand the power of that further-insulated official as, again, 
as these bills propose to do, I think it certainly raises a 
concern that merits further discussion.
    Mr. Higgins. Thank you for that clarification, sir. It's 
clear to me that this is certainly questionable from a 
constitutional perspective.
    One more question. Under Title III of the same bill we're 
discussing, there's a prescription for specific requirements in 
how, when, and who the President can fill an IG vacancy with. 
Do you know of any other Senate-confirmed position in the 
executive branch that requires this kind of litmus test?
    Mr. Smith. Well, it's certainly part of the larger 
discussion and reforms being proposed in terms of who the 
President can appoint to be acting officials. And, again, I 
point the committee members back to the concern about this 
separation of powers and the need for the nomination and 
confirmation process to wrong well and to work, frankly, more 
expeditiously than it has so far. And in that way, by 
confirming the nominees that a President puts forward, many of 
these concerns around acting officials can be avoided.
    Mr. Higgins. So to summarize, do you concur that this bill 
and the bills of this type have constitutionally questionable 
intent and would be challenged under Article III?
    Mr. Smith. I think they certainly raise constitutional 
questions potentially, and I would anticipate that there would 
be litigation surrounding them. Now, what the outcome of that 
litigation would be is difficult to predict, but the fact that 
the issue has been flagged I think means that this committee 
and Congress as a whole should pay careful attention to those 
issues and avoid them to the greatest extent possible.
    Mr. Higgins. I concur.
    And I thank the chairwoman for holding this hearing today. 
And I yield, Madam Chair.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Virginia, Mr. Connolly, is recognized 
for five minutes.
    Mr. Connolly. Thank you, Madam Chairwoman. And thank you to 
all of our panelists.
    I always enjoy my colleague and friend from Louisiana and 
his insights. I must say he reads a different set of history 
books than I do with respect to the broad powers granted the 
executive.
    The writers of the Constitution, led by James Madison, 
actually wanted to circumscribe executive power. They were 
extremely suspicious of an unchecked executive and, in fact, 
that's why Article I is about Congress and its powers, not 
about the executive--that's Article II--and then expected 
Congress to do its constitutional duty in delineating and 
circumscribing the powers of the executive. And so, it's 
perfectly within the constitutional frame envisioned by the 
Founders and the writers of the Constitution that we have 
today's discussion about putting some checks and balances on 
the executive to avoid capricious or, even worse, malign 
behavior in the removal of people who are supposed to be 
independent inspectors general.
    Ms. Hempowicz, welcome back.
    Ms. Hempowicz. Thank you.
    Mr. Connolly. You and I talked at our hearing, and I'd like 
to talk about it now. How effective do you think the 
interagency Council of Inspectors General is in transparency 
and accountability with respect to IGs?
    Ms. Hempowicz. I don't--I don't think it's as effective as 
it could be. I think it is--it's more effective than the system 
that had been in place prior to the creation of CIGIE and the 
Integrity Committee, but I think, you know, the legislation 
that you've put forth, Congressman, would greatly increase 
transparency with how both CIGIE and the Integrity Committee 
operate and oversee inspectors general.
    Mr. Connolly. And I'd like to point out to my friend, Mr. 
Gibbs, if you're there, you talked about bipartisanship. Mr. 
Hice, the ranking member of my subcommittee, has cosponsored. 
He's the coauthor of the bill on trying to provide more 
transparency and accountability for CIGIE. So, we're very proud 
of the fact that out of our subcommittee we've got a bipartisan 
bill. By the way, Mark Meadows was my original cosponsor in the 
previous Congress on this bill. So, this isn't about 
partisanship in this particular case.
    Ms. Hempowicz and then Mr. Mehrbani, could you elaborate a 
little bit, why is it important that we make sure that there is 
accountability for IGs in the event of misbehavior, 
partisanship, or malfeasance on the part of an IG? Why is that 
important?
    Ms. Hempowicz. Thank you so much for that question, 
Congressman. I think, you know, given the role that inspectors 
general play in Congress, and I think, you know, their value is 
proven by the fact that Republicans and Democrats ask 
inspectors general all the time to investigate matters that are 
important to you. So, I think, you know, part of that is why 
it's so critical that they are exercising those authorities 
responsibly.
    And I will just highlight that, you know, I think we talk 
about for-cause removal protections, and I think a lot of the 
time the conversation around that implies that the for-cause 
removal protections give IGs unlimited protection from removal. 
That's not the case at all. It just protects inspectors general 
from warrantless removal.
    Mr. Connolly. Right.
    Ms. Hempowicz. And so, it's not this--it's not this check 
against the President from holding IGs accountable. In fact, it 
creates a roadmap for Presidents to do just that in a way 
that's unimpeachable.
    Mr. Connolly. Mr. Mehrbani?
    Mr. Mehrbani. Thank you for that question. As Mr. Blockwood 
referenced in his opening statement, trust in government is at 
incredible lows. And I think that if you don't provide some 
independence and allow these IGs to do their jobs, then you're 
never going to get American people to begin trusting government 
again.
    And what's more is that, you know, in a lot of ways what 
the legislation you're proposing is going to do is in line with 
what the original Inspector General Act of 1978 does. That act 
actually required the President to provide reasons to Congress 
for the removal of an IG, and as Ms. Hempowicz just 
articulated, the President would still have several reasons 
that he or she would be able to point to, to remove an IG, but 
the bill would require that those reasons are explained to 
Congress. So, it really brings it into line with what Congress, 
I think, originally intended.
    Mr. Connolly. And final point, Mr. Mehrbani. Right now, if 
an IG is, in fact, found to have committed wrongdoing by the 
Integrity Committee, the only way we know about it is in the 
annual report. Is that correct?
    Mr. Mehrbani. I believe that's right.
    Mr. Connolly. And that's not adequate.
    Mr. Mehrbani. I don't think that that is adequate.
    Mr. Connolly. I thank you. My time is up.
    I yield back. Thank you, Madam Chairwoman.
    Chairwoman Maloney. Thank you.
    The gentleman from Arizona, Mr. Biggs, is recognized for 
five minutes.
    Mr. Biggs. I thank the chairwoman. I thank the panelists 
for being here today.
    Look, we've been talking and received some information of 
opinions on the executive power vis-`-vis legislative power, 
and that's a great debate to have some time, but part of the 
reason--and then we've conflated this into the lack of trust in 
the Federal Government. And part of the reason for that, of 
course, is that we have an overbloated, overbloated government 
that is huge with regard to the bureaucracy and the 
encroachments that we have in the lives of everyday Americans.
    And as we go through this hearing today, I'm reminded--I 
had to pull this up, but I was reminded of some works that 
Friedrich Hayek wrote about 65 years ago when he said:
    Is there a greater tragedy imaginable than that in our 
endeavor consciously to shape our future in accordance with 
high ideals, e should, in fact, unwittingly produce the very 
opposite of what we've been striving for.
    And that's where I think we may be doing today as we do, as 
we consider this bill. It's an important bill, of course. This 
hearing, however, I think, merely serves as yet another excuse 
to attack the legacy of President Donald Trump by trying to 
claim he was guilty of all manner of abuse of power. The 
legislative agenda that backgrounds this full discussion, the 
so-called Protecting Our Democracy Act, was introduced by 
Representative Schiff right before the Presidential election 
last year, solely to try to tip the scales in candidate Biden's 
favor. And we know that because the bill was never debated or 
marked up in any one of the eight committees to which it was 
referred, including this particular committee.
    Speaker Pelosi stated that the Protecting Our Democracy Act 
was designed to address President Trump's, quote, staggering 
litany of abuses and ensure that they can never happen again by 
anyone, close quote. That's just partisan hyperbole. In fact, 
Ms. Pelosi's rhetoric would have us believe that Representative 
Schiff's legislation was so critical to our Republic's survival 
that we in Congress would be totally remiss not to dedicate our 
full attention to it, and yet she assigned it to eight 
committees that didn't even hear it.
    A magical thing happened. After the November election, the 
bill almost completely disappeared from congressional 
discussions, and that's a shame because there are at least a 
few provisions in last year's Protecting Our Democracy Act that 
are worth discussing and seriously debating and considering. 
But I hope everyone in this room will forgive me for expressing 
a healthy dose of cynicism, given the fact that most of 
Representative Schiff's bill was clearly nothing more than a 
messaging vehicle for partisan purposes.
    The reality is that IG reform will always be a challenging 
endeavor because the Constitution grants Presidents broad 
staffing and firing authority, inherently.
    Mr. Smith, I know you're very worried of nearly all 
potential reforms we've been discussing today, and I certainly 
share your concerns. And I also very much agree with your 
statement that many of the proposals we've been discussing 
deceive the public by simply giving the appearance of taking 
action against real or perceived problems while doing little to 
actually address them.
    Nevertheless, as an intellectual exercise, I am curious to 
know what specific reforms among the menu of options we've been 
discussing and that are in this piece of legislation you find 
most and least objectionable on strictly constitutional grounds 
if you were asked to place them along the spectrum.
    Mr. Smith.
    Mr. Smith. Well, I certainly think most concerning are the 
for-cause removal provisions for the inspector generals. And I 
think an important point needs to be made here. Under the 
current system that's in place, if a President is deemed to 
have improperly removed an inspector general, he or she can 
certainly pay a political price in terms of if Congress views 
them to have acted improperly or if the American public has 
viewed them to act improperly. Then a political price will be 
paid.
    And then more to the point, even if the removal provision 
or other acts are ultimately upheld to be constitutional, we 
still have to ask whether they're wise policy. And we saw that, 
if we go back to the independent counsel provisions from the 
Ethics in Government Act of 1978. The Supreme Court upheld the 
constitutionality of that provision, over Justice Scalia's lone 
dissent, but later Congress ultimately let that lapse because 
of unintended practical consequences that really showed that 
there were problems with how that functioned in practice.
    So, I think we certainly need to be concerned about these 
for-cause removal provisions that could impede on the Article 
II power of the Presidency. And then other policies, you know, 
such as those relating to the Federal Advisory Committee, may 
not necessarily have as pronounced constitutional concerns but, 
again, I think it's still worth considering what the practical 
unintended consequences of those reforms could be.
    Mr. Biggs. Thank you. I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Maryland, Mr. Raskin, is now recognized 
for five minutes.
    Mr. Raskin. Thank you very much, Madam Chair, for calling 
this important hearing.
    And talk about fighting the last war. My friend, Mr. Biggs, 
invites us to believe that the legislation was just a partisan 
[inaudible] on Donald Trump that he brought to Congress, or the 
Democratic leadership of not pursuing it aggressively enough 
against Donald Trump. But if it were purely partisan, why would 
we be bringing it up now when Joe Biden is President? So I 
don't know. Somebody needs to update the talking points a 
little bit over there.
    Let's see. I'd like to start with Mr. Blockwood. Can you 
explain why we need to update the Plum Book?
    Mr. Blockwood. Yes, thank you for the question. The Plum 
Book is, as I stated earlier, grossly outdated at times and is 
not reflecting the most accurate information. And so, we need 
to fix it with providing real-time information, fixing errors 
that we already know not to be accurate, and making it readily 
accessible in a more downloadable and machine-readable format.
    For example, the current Plum Book is missing at least 10 
organizations. It's only filled--it only comments on filled, 
not vacant, positions, and it does not include the new cyber 
director and the Executive Office of the President, and is 
missing a summary of the positions in the White House. This 
information----
    Mr. Raskin. OK. Can you explain why that's an actual 
problem for the American people and for democracy for us not to 
have up-to-date data and information about who occupies 
different Federal posts?
    Mr. Blockwood. Yes. I believe a fundamental part of 
accountability is transparency. And so, if the American public 
does not know who is filling a position, it makes it hard to 
know who's making decisions on their behalf and who can hold 
them accountable.
    Mr. Raskin. OK. Thank you much.
    Ms. Hempowicz, my former student, who I'm very proud of, 
let me come to you and ask this question. Inspector generals 
play a critical role in checks and balances within each agency 
and department. As a number of the witnesses have pointed out, 
they've saved us tens of billions of dollars--or saved the 
taxpayers tens of billions of dollars in money that would have 
gone to corrupt schemes, self-dealing, waste, abuse, giveaways 
to special interests and so on.
    So, why is it important for us to say that the President 
can only sack an inspector general for a good reason? Why 
wouldn't we want the President just to be able to get rid of 
these inspectors general at will?
    Ms. Hempowicz. Thank you for that question, Congressman. 
And I raise this example only because it's relevant, not 
because I want to harp on President Trump. I've heard that 
that's not what this hearing is for.
    Mr. Raskin. Yes, you don't have to apologize for using 
facts in the committee.
    Ms. Hempowicz. Well, just simply, last year when the 
President in quick succession removed or sidelined four 
inspectors general, what we heard from the remaining inspectors 
general was that they were terrified to do their jobs. And that 
is--that's terrible for the American taxpayer. If IGs are 
worried at the beginning of an investigation that it may, at 
the end of that investigation, lead back to anybody that has 
the political favor of the President, then they're incentivized 
not to do those investigations at all.
    And I think, you know, it's important when we talk about 
the financial return that inspectors general have and that is 
absolutely critical, but I also hear members on the Republican 
side of the aisle talking about having concerns about when the 
government infringes on people's constitutional rights. That is 
also well within the inspectors general investigative mandate.
    And so, if we want these independent inspectors general to 
do their job that not only save taxpayers money, but also 
uncover instances where the executive branch is abusing its 
authority against the American people, independence is a 
critical part of that. And I will just highlight again that 
before the Inspector General Act of 1978 was passed, these jobs 
were being done within the executive branch, and Congress found 
that it was a failure because those people doing those 
investigative and oversight roles were not independent and so 
they weren't investigating in a fulsome way. And it was--and 
what the result was, was that there was inefficient and 
ineffective oversight over executive branch programs. And I 
don't think that's what we want. And so, I think it is really 
critical to recognize that the independence that was built into 
the IG Act when it was passed is not working.
    Chairwoman Maloney. We seem to have a technical problem 
now.
    Can you hear me, Mr. Raskin?
    Well, frozen.
    OK. The chair now recognizes Mr. Clyde. He's now recognized 
for five minutes.
    Mr. Clyde.
    Mr. Clyde. Thank you, Madam Chairwoman, and I appreciate 
the opportunity during this very important hearing.
    I think that we should be reducing the size of Federal 
Government and going back to the 18 enumerated powers in the 
Constitution--the Constitution provides. The American people 
deserve a government that doesn't overburden them with 
excessive regulation, because we want to live our lives as free 
of government as possible.
    Now, I'd like to followup on Congressman Grothman's line of 
questioning--I thought it was very excellent--concerning the 
ability of a duly elected President to properly focus the 
branches of the executive on the agenda that the President was 
elected to implement.
    So, my question would be to Mr. Smith. Would reducing the 
number of positions requiring Senate confirmations be 
beneficial to our country? And, if it would, what do you think 
that would look like?
    My understanding is there are about 4,000 total positions, 
and as I heard in earlier testimony, about 1,200 of them 
require Senate confirmation. I understand from committee also 
that all of them--that none of them are exempt from the 60-vote 
rule in order to bring a position to the Senate floor for 
confirmation.
    So, would you give me your thoughts on that, please?
    Mr. Smith. Sure. And I appreciate the question. Generally, 
those who exercise power on behalf of the United States in the 
executive branch are classified as either officers or 
employees, and then there are principle officers and inferior 
officers. And the Supreme Court's talked about what can be done 
by each of those categories and what's the appropriate 
appointment process for each of those entities and what 
authority they exercise.
    And so, for us to really have an informed discussion about 
this, I think we need to stop and consider: What is the 
authority? What are the functions of each one of those 
positions? Because, certainly, if they are exercising 
significant authority on behalf of the United States, the 
Framers of our Constitution intended that they would be 
nominated by the President and confirmed by the Senate.
    And so, I think your point that to the extent we can ensure 
that this process works as it was envisioned, ensure that the 
administrations timely put forward nominees and the Senate 
timely considers them, the better off we will be and the more 
functional our government will be.
    Mr. Clyde. Well, thank you. I appreciate that very much.
    I do believe that those with significant authority should 
be Senate-confirmed, but I also see that an executive branch 
can be--that it be can difficult for an executive branch to get 
their policies implemented when you have bureaucrats in the 
executive branch that basically want to resist.
    Now, I've got a question also for Elizabeth Hempowicz. You 
are the director of Public Policy, Project on Government 
Oversight. And I understand that earlier this year, you had the 
opportunity to speak in the House Budget Committee about a 
particular publication that you had. Organizations like yours, 
the Project on Government Oversight, offer valuable support to 
efforts of Congress and inspector generals to root out waste, 
fraud, and abuse in government. And I understand that the 
Project on Government Oversight began in 2020 to publish its 
own reports on government waste, fraud, and abuse related to 
COVID-19 spending, but that the project stopped publishing its 
reports on January 14, 2021, less than a week before President 
Biden took office.
    So, as the director of Public Policy, can you help me 
understand why the Project on Government Oversight stopped 
publishing this waste, fraud, and abuse report just as 
President Biden was taking office? There's a tremendous amount 
of money that has been pumped into our economy, whether it's 
the CARES Act or whether it's the current American Rescue Act 
or the--this new act coming out, this infrastructure act. And I 
think that a report like yours is important. So, can you give 
me some background as to why this report--why you stopped 
publishing it?
    Ms. Hempowicz. Yes, absolutely. And thank you so much for 
the opportunity to clarify that, Congressman. That was not a 
report. I think what you're referring to is a newsletter that 
we were publishing on a weekly basis that aggregated our 
investigative work and kind of broke it down in a little bit 
more simple terms. So, we did stop doing that newsletter, but 
we certainly haven't stopped publishing our investigative 
reports that are looking at waste, fraud, and abuse in COVID 
spending, but also more generally, government spending across 
the board.
    In fact, we've put together the most comprehensive tracker 
that we're still updating, we continue to update, with 
information about where exactly all the money that we've spent 
on COVID relief is going.
    We--as we put together that tracker, we are also 
highlighting--we began doing it for the Trump administration, 
we're continuing to do it under the Biden administration--
highlighting for the administration where there are holes in 
that data that is making it more difficult to conduct rigorous 
oversight from our perspective but also from Congress' 
perspective.
    And so, I would just--I thank you for the opportunity to 
clarify. We absolutely have not stopped doing our investigative 
work on COVID relief or, broadly, on the Federal Government, 
more generally. What we did stop doing was publishing that one 
weekly newsletter. But quite frankly----
    Mr. Clyde. Well, let me ask you this. How does the public 
get to see that?
    Ms. Hempowicz. Everything is on our website. We also still 
have, I think, three or four other weekly newsletters that we 
publish. They're just in a slightly different format. We also 
put out video explainers on our Instagram, on our Twitter. We 
are constantly trying to figure out new ways to get our 
investigative work to the public in an accessible way. And that 
newsletter was one of those, but it was never intended to be a 
permanent product.
    And then we--and I guess, you know, I think it just bears 
mentioning again because, Congress, you have the ability to do 
something about this. One of the reasons why it was difficult 
to keep that newsletter going is because of the holes in the 
data. It is incredibly difficult to oversee the spending right 
now.
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Clyde. Thank you.
    Chairwoman Maloney. I now recognize the gentlelady from 
Florida, Ms. Wasserman Schultz. She's now recognized for five 
minutes.
    Ms. Wasserman Schultz. Thank you, Madam Chair. Madam Chair, 
I appreciate you holding this very important hearing.
    This committee, Mr. Mehrbani, has jurisdiction over the 
Hatch Act, which I know you know, and that ensures that the 
Federal Government is run in a nonpartisan manner. 
Specifically, the Hatch Act prohibits executive branch 
employees from using their, quote, official authority or 
influence for the purpose of interfering with or affecting the 
results of an election.
    Mr. Mehrbani, why is it important that executive branch 
officials keep political campaigning separate from official 
agency business?
    Mr. Mehrbani. Official agency and government business is 
meant to support the public interest and implement government 
programs. If government officials were allowed to use their 
perch on behalf of a partisan political candidate, that could 
unfairly provide them an advantage and it could distort our 
political process. And, moreover, it's not the appropriate use 
of government resources. That's not what you as Congress have 
authorized Federal branch agencies to do.
    Ms. Wasserman Schultz. Seems very straightforward and 
simple. Thank you.
    Ms. Hempowicz, during the Trump administration, we saw 
gross abuse of the Hatch Act. Kellyanne Conway, for example, 
committed such egregious violations of the Hatch Act that the 
Office of Special Council recommended that President Trump 
remove her from Federal service. We know, however, that he 
refused to hold her or other senior officials who violated the 
Hatch Act accountable.
    Should political appointees be exempt from punishment from 
Hatch Act violations?
    Ms. Hempowicz. Thank you for the question, Congresswoman. 
Absolutely not. I think it sends exactly the wrong signal to 
the American people to hold civil servants to a higher standard 
than we hold political appointees to.
    Ms. Wasserman Schultz. And would it be helpful to 
strengthen the Hatch Act by clarifying that it applies to 
senior political officials, including those in the White House, 
and not just those who serve?
    Ms. Hempowicz. Absolutely. It's my belief that the law does 
already cover them, but we have seen that the Office of Special 
Counsel has taken a narrower reading. And so, I think for that 
reason alone it is absolutely critical to clarify that in the 
law.
    Ms. Wasserman Schultz. Ms. Hempowicz, during the 
committee's oversight of the Hatch Act implementation during 
the last administration, it came to light that the Office of 
Special Counsel doesn't have a consistent policy for when to 
publicly release findings of Hatch Act violations. Now, this 
could lead to inequitable treatment of career employees 
compared to political employees.
    Should the Office of Special Counsel adopt a transparent 
policy for when to publicly release findings of the Hatch Act 
violations? And would it help if Congress mandated that the 
agency adopts a consistent policy for disclosing violations?
    Ms. Hempowicz. Absolutely. I think it would help very much.
    Ms. Wasserman Schultz. The Hatch Act is intended to protect 
our democracy and ensure that government officials don't abuse 
their power or resources of their position for partisan 
purposes or to advocate, as you both mentioned, for an outcome 
in an election. I'm not really worried about this 
administration, but it is critical that the law is clarified 
for those who plan to abuse their power from finding any 
loopholes.
    [Inaudible] And I just think it's important to remember 
that, not only did we see Ms. Conway's repeated gross 
violations, but we actually had the Secretary of State give a 
speech to the Republican National Convention while he was on 
official business overseas. They held Republican National 
Committee events on the south lawn of the White House.
    We just have to make sure that these abuses of power, which 
in previous administrations only occasionally took place and 
certainly weren't as flagrant as the Trump administration's. 
The American people do have the [inaudible] to expect 
government activity and political activity is separate. We have 
that standard that we're supposed to abide by and we punish 
Members of Congress when they do not, and we need to make sure 
that throughout the executive branch that occurs as well.
    Madam Chair, thank you for the opportunity to highlight 
these important transparency and important government integrity 
issues. I yield back the balance of my time.
    Chairwoman Maloney. The lady yields back.
    The gentleman from New Mexico--Ms. Herrell, the gentlelady, 
is recognized for five minutes.
    Ms. Herrell.
    Ms. Herrell. Thank you, Madam Chair. And I appreciate all 
of the witnesses appearing today.
    Just a quick question for Mr. Smith. We know how important 
the inspector generals are, what an important role, a critical 
role that they play in rooting out fraud, waste, and abuse. Can 
you discuss quickly what problems have arisen from the 
vacancies in the inspector generals under both Republican and 
Democratic administrations? And how would you propose we ensure 
that IG vacancies are filled quickly? And also, when an IG 
position is vacant, what are the impacts that your office sees? 
You know, how does it impact the administration or Congress' 
ability to continue to function when we have so many vacancies?
    Mr. Smith. Sure. Thank you for the question. Again, I think 
it's imperative that administrations put forward qualified 
nominees for the positions and that the Senate quickly moves on 
these nominees to grant them a hearing and either confirm or 
reject them. And, certainly, the inspectors generals, I think 
all of us here today agree, they do valuable work. But really 
the--what I would like to highlight is to ensure that any 
authority that's given to the IGs, any restrictions that 
Congress places on the President's ability to oversee the work 
of the IGs is done within constitutional bounds and also with 
an eye toward potential, practical, unintended consequences.
    Again, I'll reference back to the independent counsel 
provision of the Ethics in Government Act of 1978, certainly a 
laudable goal to root out potential criminal violations by 
high-ranking government officials, but there were significant 
constitutional concerns and, in practice, I think it became a 
bipartisan consensus that there were many practical concerns 
with the way that the independent counsel functioned.
    And so, again, I think members of the committee should be 
sensitive to both of those aspects as the committee examines 
potential reforms to the inspector generals authority and 
protections.
    Ms. Herrell. Yes, and thank you for that. And I think this 
is a very important conversation to be having today because it 
just feels like we have way more government--it's more politics 
than people, and I think the people of America deserve 
transparency and limited government.
    Do you think 4,000 appointees is too many?
    Mr. Smith. Well, I think it's certainly something that 
deserves further conversation. Again, obviously, if these 
appointees are exercising significant authority on behalf of 
the Federal Government, the Framers envisioned that they'd be 
appointed by the President and confirmed by the Senate. And so, 
examining what exactly is the role and function of each of 
these positions would be very important before deciding on what 
reforms should be enacted.
    Ms. Herrell. OK. And just a final question for Ms. 
Hempowicz. And I just kind of want to give you an opportunity 
to go a little further from a question that one of my 
colleagues just asked as it related to the reports and the 
newsletters. You had mentioned that it's a bit difficult right 
now to get access to the information necessary in terms of the 
amount of money, what's happening with the COVID relief 
packages, et cetera.
    Can you expand on that a little bit? What is the roadblock? 
And what can we do to ensure that you're getting the necessary 
information so American taxpayers can understand where this 
money is being spent and how much is being spent?
    Ms. Hempowicz. Yes. Thank you so much for that question. I 
would love to clarify.
    The CARES Act included in it some very specific and 
detailed reporting requirements that would apply to almost 
every single pot of money that was appropriated by the CARES 
Act and subsequent legislation to respond to the coronavirus 
pandemic. That specific reporting requirement would have also--
would have included recipients of those funds reporting back on 
a quarterly basis to the government how many jobs they were 
able to support with that funding. This would not only have 
applied to the PPP program but any program under the CARES Act 
and subsequent legislation.
    Unfortunately, the Office of Management and Budget at the 
White House almost immediately, after the CARES Act was passed, 
undermined those reporting requirements by telling agencies 
that they didn't have to collect any new reporting and could 
rely on existing reporting mechanisms, despite the fact that 
none of those existing reporting mechanisms included the 
ability to collect that number of jobs. So, that's one example.
    I would also say that because of that guidance, we ended up 
relying heavily on the USA's spending system and, in part, some 
of the problems there is that there just aren't detailed 
product descriptions on what--or project descriptions--I'm 
sorry--on what that money is supposed to be used for, and so it 
makes oversight incredibly difficult.
    Ms. Herrell. Thank you Madam Chair.
    Chairwoman Maloney. The gentlewoman's time has expired.
    Ms. Herrell. I yield back.
    Chairwoman Maloney. The gentlewoman work from Michigan, Ms. 
Tlaib, is recognized for five minutes.
    Ms. Tlaib. Thank you, Chairwoman Maloney.
    Federal whistleblowers often provide key information about 
waste, fraud, abuse in our government at great personal risk. 
Far too often these individuals who are literally putting their 
well-being--the well-being of our country ahead of their 
careers and self-interests face retaliation and abuse from 
those in positions of power in both the public and private 
sectors.
    The members of this committee have seen this abuse 
firsthand, from airport employees moved hundreds of miles away 
to new duty stations for reporting concerns with security 
flaws, as well as White House supervisors moving files beyond 
the reach of a disabled employee who raised the alarm about 
security clearances issues.
    In my district alone, we've heard from Census workers who 
were fired for reporting problems in Census data collection, 
and EPA employees punished for requesting to be safe in the 
workplace because of air quality concerns.
    I knew this was important when this bill, this specific act 
under the leadership of Chairwoman Maloney, I knew this was 
important when the Federal employee who called me directly to 
tell me, whispering to me, that ICE agents were patrolling 
residential communities and profiling my neighbors. That agent 
was so incredibly afraid to come forward because there aren't 
enough protections, especially in agencies like ICE that have 
gone unchecked.
    A key reform that was left out of the Whistleblower 
Protection Enhancement Act of 2012 was the right of Federal 
employees who blow the whistle to have their case heard by a 
jury rather than a judge.
    So, Ms. Hempowicz, could you briefly explained why it's 
important that whistleblowers have a right to a jury trial?
    Ms. Hempowicz. Yes. Thank you so much for the question. I 
think there's two very important reasons at the moment. The 
first and most pressing is that the bureaucratic body that 
exists right now to hear a whistleblower's retaliation 
complaint has no members and hasn't had a single member in 
three years. So, it's been without a quorum for four years. 
That means that any whistleblower coming forward right now with 
a complaint of retaliation goes to the end of an over 3,000-
person line or case line, and so they're effectively shut out 
of relief.
    But even more, even if there was a fully functioning Merit 
Systems Protection Board, frankly, it has not always been the 
most friendly place to whistleblowers. Even now, the Merit 
Systems Protection Board is--sorry--the Office of Special 
Counsel recently reached out to the Merit Systems Protection 
Board and filed an amicus brief, urging the Merit Systems 
Protection Board to stop asking whistleblowers to meet a legal 
standard that is nowhere in the law.
    So, it's--you know, I just think for those two reasons it's 
not functioning. And even when it is functioning, it's not 
always there operating with the interests of whistleblowers or 
taxpayers in mind.
    Ms. Tlaib. And you mentioned--I'm so glad because this was 
my next question. The Merit Systems Protection Board, you know, 
does not issue--if they don't, like, issue a decision in a 
timely manner, you know, there should be all these processes in 
place in this bill. But it has a lacked quorum, like you said, 
since 2017 and hasn't had a single board member since 2019. Why 
do you think that's the case right now?
    Ms. Hempowicz. You know, it's hard to say. I mean, it's 
just speculation, but I think it's just not--it's not the most 
important thing to a President to make sure that this board is 
staffed. I was very excited to see President Biden put forth a 
nominee last week, but it's just one of three. And so, I would 
urge the White House to quickly followup and make two more 
qualified nominations for the Senate to consider expeditiously.
    Ms. Tlaib. Yes, I hope my colleagues heard that. I think we 
can definitely work with this administration to make that 
happen.
    I know strengthening the whistleblower protection against 
retaliation has strong support, is critically important to 
protect our country from harm. I want to point out that in 
October 2020, there was a poll that found 86 percent of 
Americans, our neighbors across the country, believe that there 
should be a stronger protection, legal protection for 
whistleblowers who report government fraud.
    So, I hope my colleagues, all of us, would continue to 
support the Whistleblower Protection Improvement Act, which we 
all believe very much is long overdue and must be enacted.
    And I thank you again, Chairwoman Maloney, for your 
leadership. And I yield back.
    Chairwoman Maloney. The gentlelady yields back.
    The gentleman from South Carolina, Mr. Norman, is 
recognized for five minutes.
    Mr. Norman. Thank you, Chairwoman Maloney. And thank you 
for the panelists that have taken their time today.
    Mrs. Maloney, I would like to enter into the record, ask 
unanimous consent to enter into the record a letter from the 
National Association of Assistant United States Attorneys, 
which are voicing their opposition to the Inspector General 
Access Act.
    Chairwoman Maloney. Without objection.
    Mr. Norman. Thank you so much.
    Let me--a comment by Mr. Mehrbani about the accountability 
or, I guess, the opinion of most--a lot of Americans that 
distrust government. I think a lot of that is due to the bait 
and switch that this administration is doing, as in naming 
something a particular bill, such as COVID relief, and having 
nine percent actually go to COVID relief, or infrastructure 
when six percent goes to infrastructure. They're using a bait 
and switch to use money in other places, and Americans are 
tired of it.
    And as Clay Higgins mentioned, after 103 days to have the 
reckless spending that we're having, the debt to GDP is going 
to increase to 102 percent at the end of 2021. That's 
insulting.
    But, Ms. Hempowicz, let me ask you. Considering these 
things and the opinion of so many people about improving 
government accountability and transparency, what in your 
organization is--what are they doing to work on reports that 
assure that the Federal dollar is going where they said? In 
many cases, the language is so general that they can use it for 
a lot of different things. Is anything in place or in the works 
to make sure that doesn't happen or to cut down on it?
    Ms. Hempowicz. If you're talking specifically about COVID 
relief, I mentioned earlier that we put together a website that 
tracks where different--where different relief programs are 
sending money. We've broken it down across ZIP Codes across the 
country. We've broken it down by programs and by recipient of 
those funds. But--but the problem I mentioned earlier is also--
is limiting our ability to answer the specific question that 
you asked, are those dollars being used for the intended 
purposes?
    And that, again, I go back to the guidance that was issued 
by the Office of Management and Budget last April that 
undermined the reporting that would have given us more specific 
information, not just from recipients of funds about what you 
intend to do it with and what you have done with it on a 
quarterly basis, but it also required reports from agencies as 
they sent money out to these recipients to report to the 
Pandemic Response Accountability Committee what exactly those--
that money was supposed to be used for. And instead what we're 
now relying on is the USA spending infrastructure where, again, 
we know--we've known for years that there are severe 
deficiencies when there's money reported into that system, 
particularly around the project description. What is this money 
supposed to be used for? And that really undermines the ability 
of independent watchdogs like POGO, but also inspectors general 
and Congress in conducting rigorous oversight, especially given 
the lack of resources that we all have.
    Mr. Norman. OK. Thank you.
    Mr. Smith, let me--I'd like to discuss the role of 
inspector general in exposing current government employees who 
are committing crimes, and I say serious crimes or violent 
crimes. I would say, like, a serious crime would be if you were 
on a Select Committee, getting military information that others 
don't get, and if you're sleeping with a spy, that would be a 
serious crime.
    But let me ask you. If a Federal employee were convicted of 
a serious or violent crime off the clock, is there any laws, 
consequences that would require his removal--his or her removal 
from office?
    Mr. Smith. Well, I think it would depend on the specifics 
of the crime, and we need more factual information. But, 
generally speaking, inspector generals, their primary role is 
to combat fraud, waste, and abuse in the Federal Government. 
Now, sometimes their investigations do lead to criminal 
referrals, and most inspector generals and the appropriate 
agents within their offices do exercise some criminal 
investigatory authority.
    But I think one of the proposals before the committee today 
that merits further consideration is the proposal to give 
inspectors general increased administrative subpoena power. I 
think the committee should take a closer look at this because, 
not only would the committee and these proposals be expanding 
the authority of the inspectors generals, while at the same 
time insulating them from further political accountability, if 
there is a legitimate concern about a criminal act having 
occurred or a criminal investigation, then the grand jury 
process and the grand jury subpoena process would certainly be 
an available mechanism for that investigation.
    Mr. Norman. Thank you so much.
    Chairwoman Maloney. The gentleman's time has expired.
    The gentlewoman from Missouri, Ms. Bush, is recognized for 
five minutes.
    Ms. Bush. Thank you. Thank you, and good morning. St. Louis 
and I thank you, Madam Chair, for convening this important 
hearing today.
    In my community in Missouri's First District, we face 
horrifying radioactive pollution, racist gun violence, and a 
dangerous shortage of affordable housing, all of which are made 
worse when our government too often fails to conduct adequate 
oversight. With this in mind, we are eager to do that work 
today and make clear the urgent need for accountability and 
transparency, especially in the aftermath of the Trump 
administration, who eroded the integrity and trust in our 
government.
    Ms. Hempowicz, you testified at a subcommittee hearing on 
Government Operations last month. During that hearing, the 
chair of the Council of Inspectors General on Integrity and 
Efficiency, Allison Lerner, testified, quote: Currently, the 
government employees can avoid speaking with OIG auditors, 
inspectors, or investigators by quitting or retiring prior to 
being interviewed.
    Ms. Hempowicz, how big of a thing is this? Like, how often 
are retirement or resignation used to avoid questioning?
    Ms. Hempowicz. Yes, ma'am. Thank you so much for the 
question. It is much more common than you would think. You 
know, I encourage members of this committee to just page 
through inspectors general reports. One, they're fascinating 
but, two, you'll often see, you know, we couldn't complete this 
investigation because the person left government and wouldn't 
answer our questions. It's an illogical limit to these 
inspectors general for the ability to do their jobs.
    And I will just highlight, because Mr. Smith has raised 
that he has concerns about how they would exercise the subpoena 
authority. I want to just highlight that the Department of 
Defense Inspector General has testimonial subpoena authority. 
So, does the Pandemic Response Accountability Committee. So, 
does the Special Inspector General for Pandemic Recovery. And 
we have not seen those inspectors general abusing this 
authority.
    I would also highlight that under the provision--under the 
provisions of the law in front of Congress right now that would 
institute for-cause removal protections for inspectors general, 
abusing subpoena authority would absolutely fit under the abuse 
of authority provision there, allowing the President to remove 
an inspector general.
    Ms. Bush. Thank you. Thank you.
    So, Vice Chair Gomez introduced legislation, which is also 
included in Chairwoman Maloney's IG Independence and 
Empowerment Act, to grant this authority, the testimony of 
subpoena authority, of course, to the inspectors general. So, 
Ms. Hempowicz, how does the inability to compel testimony from 
former government employees hinder the work of the inspectors 
general and their ability to fully investigate matters?
    Ms. Hempowicz. It completely undermines their ability to 
conduct fulsome investigations. And it's not just former 
government employees who have left service that are left out of 
inspectors general, their jurisdiction, because of the lack of 
this testimonial subpoena authority. They're also limited when 
they're reaching out to ask--when they're asking questions of 
government contractors and subcontractors. And we've seen just 
how exponential the potential for waste is, utilizing 
government contractors and over utilizing government 
contractors. And so, I think this limit to IG authority should 
be concerning to members of both sides of the aisle.
    Ms. Bush. I agree. OK. Do you have any concerns about--so, 
first of all, let me just say thank you for--you did talk about 
who does have the testimonial subpoena authority. But do you 
have any concerns about retaliation against lower-level 
employees if we were to expand this power?
    Ms. Hempowicz. No. No, I don't think so. I mean, lower-
level employees are, you know, I guess, if they're in 
government right now, they are under the IG's jurisdiction. But 
I also think, you know, there's another proposal in front of 
the committee--and I apologize, there's been so many bills, and 
I can't keep track of the name--that would increase 
transparency around how the Integrity Committee within CIGIE 
investigates IGs for wrongdoing.
    And so, I think if there were instances where we saw this 
authority being abused, those changes to the Integrity 
Committee process would help bring those to light. But I also 
hope that by passing whistleblower protections and 
strengthening those whistleblower protections, you would also 
be hearing from whistleblowers who could more safely then raise 
those concerns to Congress.
    Ms. Bush. Thank you.
    And, Allison Lerner, the chair of the Council of the 
Inspector Generals on Integrity and Efficiency also told the 
subcommittee last month, and I quote: Frequently having the 
authority means that you don't have to use it. So, in 
situations of voluntarily cooperation follows instead of the 
need to compel cooperation.
    So, Ms. Hempowicz, the Inspector General Access Act is 
another proposed reform that would close the loophole. How 
would the bipartisan Inspector General Access Act improve 
investigations into misconduct by Federal attorneys?
    Ms. Hempowicz. Thank you for that question. It would make 
that oversight independent. Right now, oversight over 
Department of Justice attorneys accused of misconduct is done 
by an office called the Office of Professional Responsibility 
within DOJ. That is not at all independent. So, it's within the 
agency's chain of command.
    Chairwoman Maloney. The gentlewoman's time has expired.
    The gentlewoman from California, Ms. Porter, is recognized 
for five minutes.
    Ms. Porter. Mr. Mehrbani, the Federal Vacancies Reform Act 
of 1988, or FVRA, authorizes the President to name an official 
to serve in an acting capacity until a permanent appointee is 
nominated or considered by the Senate. And this law, FVRA, 
limits who can serve in these temporary roles, and the purpose 
of those limits is to put guardrails in place, to prevent 
officials without appropriate experience from being appointed.
    Is that a basically correct, good description?
    Mr. Mehrbani. Yes, that's a great description.
    Ms. Porter. And having qualified individuals serving in 
these roles helps guard against wasting taxpayer dollars by 
inexperienced or unqualified leadership. Is that right?
    Mr. Mehrbani. That's right. And it also ensures that 
Congress has their constitutional say in who serves in these 
important positions.
    Ms. Porter. And FVRA, I said it was in 1988. It was first 
signed into law and enacted during the Clinton Administration 
with a Republican-controlled Congress. Can you briefly explain 
what led that Republican-controlled Congress to pass the law, 
the FVRA law?
    Mr. Mehrbani. Thank you for this question. And it's an 
excellent one because it gets to the point that the reforms to 
the Vacancies Act have been bipartisan in the past. At the 
time, there were perceived abuses by President Clinton in 
installing acting officials against the will of the Senate in 
seeming perpetuity, and so Congress, both Democrats and 
Republicans, voted to implement this reform in 1998.
    Ms. Porter. So, this problem isn't new, but it does seem to 
have gotten worse again over the last four years. In fact, a 
landmark study by Professor Anne Joseph O'Connell, one of the 
leading scholars on vacancies, she found there was a 
significant increase in acting officials and, in this case, 
unqualified officials during the Trump administration.
    I ask the chair for unanimous consent to enter Professor 
O'Connell's summary of her study into the hearing record.
    Chairwoman Maloney. Without objection.
    Ms. Porter. Mr. Blockwood, I want to turn to you for a 
minute. I understand the Partnership for Public Service has 
tracked Federal vacancies for a long time. Is the partnership a 
nonpartisan organization?
    Mr. Blockwood. Yes, that's my simple answer to that 
question.
    Ms. Porter. Yes. Ms. Hempowicz, I appreciate that POGO, 
Project on Government Oversight, has done extensive work on the 
issue of vacancies as well. Is it fair to say that POGO has 
raised concerns about vacancies and the use of acting officials 
during the administrations of both parties?
    Ms. Hempowicz. Yes, ma'am.
    Ms. Porter. So, the Trump administration's actions revealed 
ambiguity and loopholes with that Clinton-era bipartisan 
vacancy law I mentioned, FVRA, and so this law needs updating. 
It's been clear for a long time, and what's happened in the 
last four years makes it very plain. My bill, the 
Accountability for Acting Officials Act, would close many of 
the loopholes in the current law.
    We've talked about how this issue of making sure we have 
qualified officials is a bipartisan one, both because it's 
about making sure government is effective, guarding against 
taxpayer dollars, protecting the constitutional say of 
Congress. And yet--and it's always historically been 
bipartisan. But as I prepare to introduce--reintroduce the 
Accountability for Acting Officials Act tomorrow, I still have 
yet to find a Republican to co-lead the bill. It's frustrating 
and it's disappointing, and I invite any of the Republicans 
participating in today's hearing to co-lead this bill with me. 
There was bipartisan support for FVRA in 1998. There should be 
bipartisan support for updating it now.
    Professor O'Connell submitted written testimony in support 
of this bill for today's hearing, and I ask unanimous consent 
for that statement to be entered into the hearing record.
    Chairwoman Maloney. Without objection.
    Ms. Porter. I also ask unanimous consent, Madam Chairwoman, 
to enter a letter signed by several good government groups in 
support of this bill.
    Chairwoman Maloney. Without objection.
    Ms. Porter. Thank you so much, and I yield back.
    Chairwoman Maloney. The gentlelady yields back.
    The gentleman from Georgia, Mr. Johnson, is now recognized 
for five minutes.
    Mr. Johnson, and you've been here the whole hearing. So, 
thank you.
    Mr. Johnson. Thank you, Madam Chair, and thank you for 
holding this very important hearing.
    Last Congress in my role on the Judiciary Committee, I 
spent a significant amount of time reviewing notes taken by 
Donald Trump's associates, which detailed serious misconduct, 
notes that reportedly infuriated Donald Trump to the point that 
he allegedly confiscated them from his interpreter after a July 
2017 meeting with President Putin in Germany, and later 
instructed the interpreter not to discuss the meeting.
    According to the report issued by Special Counsel Robert 
Mueller, President Trump vocally took issue with the White 
House counsel, Don McGahn, taking notes, and asked McGahn, 
quote: What about these notes? Why do you take notes? Lawyers 
don't take notes. I've never had a lawyer who took notes, end 
quote.
    Mr. Smith, in your opinion, is it ever appropriate for a 
President to attempt to destroy records of meetings with 
foreign leaders, particularly those with demonstrated records 
as adversaries to the United States of America?
    Mr. Smith. Well, I think in terms of the Presidential 
Records Act, Congressman, the President does have certain 
responsibilities to preserve records that are made----
    Mr. Johnson. My question is, is it ever appropriate for the 
President to destroy records of meetings with foreign leaders?
    Mr. Smith. Well, again, Congressman, the President has 
certain responsibility under the Presidential Records Act to 
maintain certain records in the course of conducting the 
business of the United States.
    Mr. Johnson. Well, let me ask Mr. Brookwood (sic) the 
question. Mr. Brookwood, is it appropriate for a President to 
destroy records of meetings with foreign leaders?
    Mr. Blockwood. I think the answer to this question is to 
ensure transparency and accountability, we want to strive to 
keep all records that will help the public know what's going 
on, but at the same time, there are certain responsibilities 
and powers that a President has to make sure that he can 
conduct business accordingly.
    Mr. Johnson. Well, what record--what reasons would a 
sitting President have for destroying records of meetings with 
foreign leaders?
    Mr. Blockwood. I'm not suggesting or advocating that a 
President should destroy any records. I'm saying that 
transparency is important and that the American public, the 
Congress, and others have a right to know what happens. I'm 
also saying the President has a responsibility and certain 
powers that would allow for some information not to be 
disclosed. That could include national security information and 
other things that could harm the U.S. or its ability to conduct 
business.
    Mr. Johnson. Well, do you believe that records in that area 
would--should be destroyed?
    Mr. Blockwood. I would not advocate for records to be 
destroyed. I'm not familiar with the specifics of what those 
notes entailed or how they were used or if they were destroyed. 
Again, I would recommend that we look toward transparency and 
accountability and keep all records and information, to the 
extent that we can, that does not violate the President's 
ability to conduct business or any other responsibilities.
    Mr. Johnson. Ms. Hempowicz, this committee has a long 
history of working to update and improve the President's--the 
Presidential Records Act. For example, in 2014, a bill 
sponsored by my friend and then ranking member, Elijah 
Cummings, the President and the Federal Records Act amendments 
was signed into law after passing both Houses of Congress with 
bipartisan support. Do you believe it's time that Congress 
consider additional changes to strengthen the Presidential 
Records Act?
    Ms. Hempowicz. Yes. Absolutely, Congressman. And I also 
just want to highlight that requiring the President and the 
executive to maintain those documents does not necessarily mean 
maintain those documents for public release. And so, I think 
it's also really important to highlight that the Presidential 
Records Act does include provisions to make sure that sensitive 
information that shouldn't be released to the public won't be.
    Mr. Johnson. Thank you.
    Chairwoman Maloney introduced the Presidential Records 
Preservation Act, and this bill would update the law to require 
the President, Vice President, and other senior White House 
officials to, quote, make and preserve records, end quote, that 
document the official activities of the President. It will also 
require that electronic messages can be searched and retrieved.
    Ms. Hempowicz, do you believe that these updates to the 
Presidential Records Act are needed?
    Ms. Hempowicz. Yes, absolutely.
    Mr. Johnson. And would anything in the Presidential Records 
Preservation Act prohibit a President from claiming executive 
privilege?
    Ms. Hempowicz. Not to my knowledge.
    Mr. Johnson. This bill would improve transparency and 
ensure the preservation of important Presidential records. 
Would you agree, Mr. Blockwood?
    Mr. Blockwood. Yes. I think there would be some increased 
efforts to preserve information, particularly that of which is 
based on data and online.
    Mr. Johnson. And, Mr. Mehrbani, is that your opinion as 
well?
    Mr. Mehrbani. It is.
    Mr. Johnson. OK. Well, with that, I think my questions have 
been answered, and I will yield back.
    Chairwoman Maloney. Thank you. The gentleman yields back.
    And the gentleman from Illinois, Mr. Quigley, a new member 
of the committee, is now recognized for five minutes. Thank 
you.
    Mr. Quigley. Thank you, Madam Chairwoman. A new member and 
an old member. I started my first two terms on this committee, 
and I know and respect its important work.
    And I put in a shameless plug for the bipartisan 
Transparency Caucus. And I know a lot of legislation that's 
come through the committee began with the thought there in the 
bipartisan efforts of that caucus. So, again, you ought to 
consider joining, anyone who's watching this. And I think it's 
also indicative that there are areas that we can work together.
    Last month, I reintroduced the Access to congressionally 
Mandated Reports Act, with the support of the ranking member, 
Ranking Member Comer. This bill passed the House unanimously in 
the last Congress, and I'm pleased again that it does have 
bipartisan support. And I want to point out through questions a 
couple points.
    You know, if someone wanted to find out more about these 
reports or just find congressionally mandated reports, this 
would be a particularly difficult task. I guess I'll begin by 
asking Ms. Hempowicz, your reaction, just how difficult is it 
to get these reports at times or even to find them?
    Ms. Hempowicz. Extremely difficult, Congressman. There's no 
central repository to find them, so you have to know which 
agency is issuing them, what is the timeline that they will be 
issued on. And then you have to cross your fingers and hope 
that the agency will meet that timeline and that the reports 
will be public, which is often not the case.
    Mr. Quigley. And, again, focusing on the point that this 
putting them in a central location and rather than just each 
agency, perhaps, posting them, why that's important as well.
    Ms. Hempowicz. Well, I think in particular, for your 
constituents who are probably not so steeped in kind of the 
legislative text that created those reports and probably don't 
understand the various programs and subagencies within 
executive agencies, you know, I think a central repository 
really is a tool for the people to bring these reports to those 
people who are paying for those reports.
    Mr. Quigley. And, again, this does sit on a non--a no-
charge basis. Do you agree that the service for this should be 
free?
    Ms. Hempowicz. Absolutely. Taxpayers are already paying for 
those reports to be put together. They should not have to pay 
to access them.
    Mr. Quigley. Thank you.
    Madam Chairwoman, unless any of the other members of the 
panel wish to comment, I would yield back.
    Chairwoman Maloney. The gentleman yields back.
    And the gentlewoman from California has joined us, Ms. 
Jackie Speier. She's now recognized for five minutes.
    Ms. Speier. Thank you, Madam Chair. And thank you to our 
witnesses. I am at a hearing on the House Armed Services 
Committee at the same time, so forgive me for coming in late.
    The U.S. Government is the biggest consumer in the world, 
spending a record of $228 billion alone in Fiscal Year 2020. 
And, supposedly, these taxpayer dollars are only awarded to 
responsible contractors. But our contracting system is rife 
with abuse. Larger contracts often enjoy an unfair advantage 
over smaller ones, and many have mastered manipulation of 
safety systems meant to prevent misconduct and abuse.
    For example, the Pentagon recently awarded the Atlantic 
Diving Supply a $33 billion 10-year contract through a program 
meant for small businesses, despite the fact the CEO of ADS 
personally agreeing to pay $20 million, as recently as 2019, to 
settle civil charges that his company defrauded the very same 
program by falsely claiming to be a small business.
    The suspension and this debarment list is meant to prevent 
bad actors from obtaining government contracts, yet savvy 
individuals frequently are able to get around it. This was 
awarded during the final days of the Trump administration, and 
it smacks of abuse.
    So, Ms. Hempowicz and Mr. Blockwood, how can we prevent 
suspended and debarred contractors from getting around bans?
    Ms. Hempowicz. Well, I think simply requiring additional, 
more transparency there, but also requiring contracting 
officers to cross reference with those lists to make sure 
before they afford these contracts, but go a little bit deeper 
than surface level.
    You mentioned that the owner of ADS owned another company, 
but if the company name appears on the Federal contractor 
misconduct data base, it won't necessarily tell you that that 
company is connected to ADS. So, I think additional information 
there is also necessary.
    Ms. Speier. So, let me ask you as a followup question. Is 
there a requirement when they are contracting that they list 
any former company that they've been associated with that's 
done business with the Federal Government?
    Ms. Hempowicz. Not to my knowledge, but I'm not a Federal 
contracting expert in the same way that some of my colleagues 
are.
    Ms. Speier. All right. Thank you.
    Maybe someone else can answer that question? Mr. Blockwood, 
would you like to respond to the initial question?
    Mr. Blockwood. Yes. You know, I think providing information 
on who the contractors are, what work they'll be doing, and 
making that readily accessible to the public can help build 
transparency and build trust, and can help the overall issue 
that you brought about in your original question.
    Ms. Speier. All right. Let me ask Ms. Hempowicz. The 
exemption that allows for FOIA requests to be ignored, I guess 
it's exemption No. 5, can you give us any advice as to how we 
should tighten that so it's not abused as an exemption?
    Ms. Hempowicz. Yes. You know, so the exemption 5, I think 
for the most part, is when we're talking about predecisional 
information. I think that's one place where we've seen the 
executive abuse it, where they say legally binding opinions by 
the Office of Legal Counsel, despite being legally binding on 
executive branch attorneys--or sorry, executive branch 
employees, are not final determinations of law. There, you 
know, we've seen the executive kind of build a loophole for 
itself there where they get to have it both ways, where these 
opinions are binding on the executive branch but not so binding 
that they are final and require publication under FOIA.
    And so, I think exemption 5 is certainly one of the 
exemptions that needs to be tightened up so that it's clear 
what is predecisional and what isn't and what should be 
withheld from release. But I think there are also other FOIA 
exemptions that deserve attention, and I would highly recommend 
Congress to be doing--to update the law in a more fulsome way.
    Ms. Speier. All right. I think my time has almost expired, 
so I will yield back.
    Chairwoman Maloney. The gentlelady yields back, and I now 
recognize myself.
    I want to thank Ms. Hempowicz, Mr. Blockwood, Mr. Mehrbani, 
and Mr. Smith for their testimony. I look forward to continuing 
to work together to enact these commonsense bipartisan reforms.
    Enhancing the independence of inspectors general and 
providing these important watchdogs with the authorities they 
need would make government more accountable. Strengthening the 
whistleblower protections for Federal employees would also 
improve the accountability of government by ensuring that 
employees with evidence of wrongdoing are protected when they 
speak up. Ensuring that the public knows who is serving in 
senior positions in government and who is advising the 
government would enhance transparency.
    Many of these reforms today are bipartisan. I encourage 
every member of the committee to engage in these issues in a 
thoughtful and constructive manner so that we can move them 
quickly toward enactment.
    With that, I ask unanimous consent to enter into the record 
the following documents: March 16, 2021, letter signed by more 
than two dozen outside groups and experts in support of the 
PLUM Act. March 18, 2021, a letter from Partnership for Public 
Service in support of the PLUM Act. GAO report from March 14 
recommending that Congress consider legislation to require 
publishing information on political appointees. May 3, 2021, 
letter from organizations in the Make It Safe Coalition 
Steering Committee in support of the Whistleblower Protection 
Improvement Act. Written testimony of Thomas Devine, legal 
director, Government Accountability Project. April 1, 2021, 
letter to President Biden on whistleblower protections signed 
by over 260 organizations. March 26, 2021, letter signed by 17 
organizations in support of the Inspector General Access Act. 
January 28, 2021, letter from the Council of Inspectors General 
on Integrity and Efficiency on their legislative priorities for 
the 117th Congress. November 23, 2020, letter from then GSA 
Administrator Emily Murphy to then President-elect Joe Biden. 
March 16, 2021, letter signed by 15 organizations in support of 
reforms to the Federal Advisory Committee Amendments Act. 
September 10, 2020, GAO report that identified weaknesses in 
agency implementation of FATCA. And April 13 letter from 29 
organizations in support of the access to congressionally 
Mandated Reports Act.
    Without objection, so ordered.
    Chairwoman Maloney. In closing, I want to again thank our 
panelists for their remarks, and I want to commend my 
colleagues for participating in this important conversation.
    With that, without objection, all members will have five 
legislative days within which to submit additional written 
questions for the witnesses to the chair which will be 
forwarded to the witnesses for their response. I ask our 
witnesses to please respond as promptly as you are able.
    This hearing is adjourned.
    [Whereupon, at 1:20 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
